<html>
<title> - YOSEMITE RESTORATION</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                          YOSEMITE RESTORATION

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

 THE NATIONAL PARK SERVICE PLANS FOR RESTORATION OF YOSEMITE NATIONAL 
                 PARK FOLLOWING THIS WINTER'S FLOODING

                               __________

                     MARCH 22, 1997--EL PORTAL, CA

                               __________

                           Serial No. 105-11

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 40-739 CC                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               NICK LAMPSON, Texas
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                        Allen Freemyer, Counsel
                    Steve Hodapp, Professional Staff
                    Liz Birnbaum, Democratic Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 22, 1997......................................     1

Statements of Members:
    Boxer, Hon. Barbara, a U.S. Senator from California..........     2
    Radanovich, Hon. George, a U.S. Representative from 
      California.................................................     5

Statements of witnesses:
    Cann, Kevin, Chief, Maintenance and Engineering, Yosemite 
      National Park..............................................     7
    De Bell, Garrett, Yosemite Guardian..........................    33
        Prepared statement.......................................    45
    Fischer, Gerald D., President, Yosemite Motels...............    26
        Prepared statement.......................................    40
    Fraker, Gary, President, Yosemite Concession Services........    17
        Prepared statement.......................................    68
    Griffin, Barbara Jo, Superintendent, Yosemite National Park..     7
        Prepared statement.......................................    54
    Huse, Brian, Pacific Region Director, National Parks & 
      Conservation Association...................................    31
        Prepared statement.......................................    43
    Kukulus, Peggy, Executive Director, Yosemite Sierra Visitors 
      Bureau.....................................................    20
    Monteith, Dick, a State Senator in California's 12th District    14
        Prepared statement.......................................    38
    Parker, Garry, Supervisor, Mariposa County (CA), District 4..    15
        Prepared statement.......................................    38
    Reilly, Patti, Supervisor, Mariposa County (CA), District 1..    24
    Urness, Tiffany, Research Program Manager, Califoria Division 
      of Tourism.................................................    19
    Wallace, Linda, Chair, Yosemite Committee of the Sierra Club.    35
        Prepared statement.......................................    49
    .............................................................

Additional material supplied:
    After the Flood in Yosemite..................................    86
    Eastern Madera County Report of Economic Impact Due to Flood 
      Closure of YosemiteNational Park...........................    79
    Nature's Agenda in Yosemite..................................    85
    Opportunity at Yosemite......................................    84
    Opportunity in Disaster......................................    83
    Yosemite's Flood--A Chance for Renewal.......................    82
    .............................................................

Communications submitted:
    Urness, Tiffany: Letter of March 22, 1997, to Hon. James V. 
      Hansen.....................................................    80
    Williams, Margie: Memorandum to Steve Hayes on day use 
      reservation system.........................................    66
    Young, Hon. Don: Letter of March 12, 1997, with attachment to 
      Hon. George Radanovich.....................................    52
    .............................................................


                          YOSEMITE RESTORATION

                              ----------                              


                        SATURDAY, MARCH 22, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee onResources,
                                                     El Portal, CA.
    The Subcommittee met, pursuant to call, at 12:30 p.m., in 
Cedar Lodge, 9966 Highway 140,El Portal, California, Hon. 
George Radanovich, presiding.
    Mr. Radanovich. Good afternoon and welcome to Cedar Lodge. 
We are here for, of course as you know, the House Committee on 
Resources' Subcommittee on National Parks and Public Lands 
oversight field hearing on the Yosemite restoration.
    Before we officially open the hearing, what I'd like to do 
is invite Senator Monteith to make a presentation as somebody 
in the community who has done a remarkable job in aiding those 
who did not benefit so well from our recent visit by Mother 
Nature on January 1st.
    Dick, please, come on up.
    Senator. Monteith. Jerry Fischer, would you step forward, 
please?
    Jerry, it is my pleasure to present to you a resolution 
from the State Senate of California for the tremendous service 
that you've done the people. During a difficult time in this 
area where we had the flood and the problems, he opened up his 
lodge to all the people in the surrounding community and 
afforded them an opportunity to have a warm bed, a place to 
sleep in, and realize that they were important.
    And so, it is with a great deal of pleasure to present this 
resolution to you to prove once again that the people in the 
Sierra and the people of California have the strength to raise 
up, to rise up to the occasions that we're confronted with and 
continue on and our life will be a success, and it gives me a 
great deal of pleasure to present this to you at this time.
    Mr. Radanovich. Many of you may know I was a County 
Supervisor in Mariposa County for about four years. What you 
may not know is that during that tenure my associates presented 
me with a plaque before I left the Board of Supervisors that, 
basically, said I could do whatever I wanted to do in a 24-hour 
period. And, I did want to say, this is my first opportunity to 
be able to run a meeting without even four other members of the 
Board of Supervisors to worry about. So, it's a real pleasure 
and honor to be back home.
    We are very, very fortunate to be joined by Senator Barbara 
Boxer, who will be giving testimony and then joining us on the 
platform to hear the concerns of the local citizens with 
directing the future of Yosemite National Park.
    So, Senator Boxer, you are very welcome here and thank you 
for coming today.

 STATEMENT OF THE HONORABLE BARBARA BOXER, A U.S. SENATOR FROM 
                           CALIFORNIA

    Senator. Boxer. Thank you, Congressman. I won't be able to 
join you up on the stage there today. What I will do is stay to 
hear some of the testimony. I must, unfortunately, drive to 
Fresno and take a flight to Los Angeles, so I wish that I could 
join you up there, but you are doing a great job, and I wish 
you well as the hearing proceeds.
    Mr. Chairman, I'm happy to be back. In the tough times we 
have to work together. I was right here in Cedar Lodge in 
January, `96, after the government shutdown, and I know how 
difficult that was for the local community. And, this time it's 
Mother Nature who caused the shutdown, and we have to work 
together to pick up the pieces and bring this park back to its 
pristine condition.
    According to the National Park Service, over 350 damage 
assessments have been completed by engineers, architects, 
resource specialists and other technical experts.
    Their first damage assessment report shows serious damage 
to the four main routes leading into the park, major electrical 
and sewer systems, 224 units of employee housing, over 500 
guest loading units, over 350 campsites, 17 restoration 
projects and over ten archeological sites.
    Mr. Chairman, I know full recovery will take a long time, 
but there is no reason that we can't put our heads together and 
get these roads up and running. We did it at the Los Angeles 
earthquake, and we must do it here.
    If there is any truth to the rumors that I hear of some 
kind of a permanent year shutdown of our roads, that is 
unacceptable, and I am very hopeful that our wonderful B.J. 
Griffin will put our minds to rest on that score.
    I want to commend her, as well as all the Park staff and 
local community leaders, all of your efforts have been 
herculean, to help people who have been devastated by floods, 
and we--State Senator Monteith just honored one of these 
wonderful people.
    It is to your credit that the Park has already reopened. 
Understanding there has been an enormous amount of progress, 
let's remember that there are many outstanding issues that need 
to be dealt with in the days ahead. We need to redouble our 
efforts to improve and nurture communications between the 
National Park Service, our local community, and the general 
public.
    To further the work done so far, the Congressional 
appropriations of emergency funding is urgently needed. And, 
Congressman, I'm so pleased I can be now on the Appropriations 
Committee, so after you do your fine work on the House side, 
we'll get it over on the Senate side, we can team-up to get 
this done.
    On March 19th, President Clinton announced his emergency 
request to Congress for $177.8 million for the National Park 
Service to repair and replace facilities at ten national parks, 
including Yosemite. We will have to see whether this proves to 
be sufficient. It may not be. The current National Park Service 
estimates of the cost of recovery at Yosemite alone is 
approximately $178.5 million, and damage assessments have still 
not been completed.
    Congressman, I want to really congratulate you on your 
leadership in putting together a bill that we must have. Last 
week, I introduced a bill called the ``Yosemite Emergency 
Restoration and Construction Act.'' The primary purpose of 
introducing my bill is to set a benchmark for recovery and 
clean-up efforts at Yosemite.
    This is what the bill does:
    It authorizes emergency funding.
    Second, it authorizes a specific amount--$200 million in 
emergency funds in fiscal year 1997.
    Third, it specifies that funds shall only be spent in a 
manner that is consistent with the Yosemite General Management 
Plan, the Concession Services Plan, and when adopted, the 
Yosemite Valley Housing Plan, and the Valley Implementation 
Plan.
    Fourth, it specifies that funds spent on repair and 
rebuilding of concessions facilities shall be recovered by the 
Secretary of Interior to the greatest extent practicable 
according to the Department of Interior's contracts.
    Fifth, it authorizes emergency grants to satellite 
communities around Yosemite to provide mass transit visitor 
transportation into the park during repair and restoration 
activities on access roads.
    Sixth, it authorizes emergency appropriations for other 
California parks that suffered flood damage including Redwood 
National Park, Sequoia-Kings Canyon National Park and others.
    Seventh, it authorizes $7 million to be appropriated in 
fiscal year 1998 and such sums as may be necessary for each 
fiscal year thereafter, for the establishment of a mass transit 
system for Yosemite. I know that you are working on this, I 
know that it's extremely important to all the people here and 
to these communities. It is also very important to preserve our 
environment.
    The importance of emergency funding for Yosemite cannot be 
overstated. I know you and I agree on this point. It is a 
unique national treasure, recognized all over the world for its 
spectacular natural beauty. We have 1.4 million people visiting 
the Park every year, including tens of thousands of 
international visitors who travel to California for the sole 
purpose of staying in the Park to experience this incomparable 
nature.
    John Muir, one of our nation's founding leaders of 
environmental conservation, first encountered the majestic 
Yosemite Valley in 1864 and immediately realized the importance 
of preserving its natural wonders. His foresight and passion 
resulted in the establishment of Yosemite National Park in 
October of 1890. At its onset, the Park included 60,000 acres 
of scenic wild land.
    Today, some 106 years later, the park embraces over 761,000 
acres of granite peaks, broad meadows, glacially carved domes, 
giant sequoias, and breathtaking waterfalls. I don't think 
anyone who has ever visited ever forgets that first visit. It 
is awe inspiring, and it is our responsibility to work together 
to assure that it stays so.
    So, we will work together to ensure that we repair our 
treasured Yosemite as quickly and as intelligently as possible.
    Congressman, I want to make one more important point here, 
which I hope you will agree, but we haven't had a chance to 
discuss this. We all know our Federal budget must be balanced, 
and, of course, that puts great pressure on us to carry our 
concerns to our colleagues at this time, and convincing them 
that these funds are so important that they'll absolutely have 
to cut funds elsewhere to make these repairs.
    I also know there are several questions surrounding park 
policy, such as Dames Reservation Plan, parking garage and 
other very contentious issues. I have a strong message for my 
friends at the National Park Service, for whom I have the 
greatest respect, let us not adopt any new policy or program 
without the broadest consultative process, and let us see that 
if the surrounding communities are unhappy we lose the key 
component of a successful and efficient park operation.
    I strongly advise all of us to concentrate our efforts 
toward getting this appropriations bill through for Yosemite. 
It will take all of our focus and cooperation. What we are 
seeing we can do now is to turn this appropriations thing into 
an argument about park policies and issues that are divisive. 
Let us pass this appropriations to fund the things that all of 
us agree are crucial to Yosemite's future.
    That is what I told Interior Secretary Bruce Babbitt, just 
Thursday, on the phone; I am very pleased that he is coming to 
Yosemite tomorrow, that is my understanding, because it shows 
his commitment to this magnificent place. But, again, I want to 
say to you that we are moving together as a team across party 
lines. I can't stress how important this is, because we have 
many colleagues to convince on both sides of the aisle, Working 
together, I am convinced we can do this.
    Thank you so very much for this opportunity to appear 
before you.
    Mr. Radanovich. Thank you, Senator, for being here today, 
too, and I would like to thank you for the introduction of your 
legislation on the Senate side.
    I think that working together to convince the other Members 
of the House and the Senate to support this emergency 
appropriation is certainly something you and I can do, and also 
in working together we can help bridge whatever gaps there 
might be between the Park Service and the outlying communities 
into developing a mutual solution that's a win/win for both, 
too. So, I look forward to working with you on that, and very 
much appreciate you being here at the hearing.
    You are welcome to join us, or, I know I understand you are 
on a time schedule.
    Senator. Boxer. Thank you very much for the invitation to 
join you. I will sit here as long as I possibly can, and, 
again, my deepest thanks for including me in this hearing.
    Mr. Radanovich. Thank you, you are welcome.
    Before I read my statement, I do want to mention, too, that 
the Chairman of the Resources' Subcommittee on the National 
Parks and Public Lands, Congressman Jim Hansen from Utah, was 
planning on being here with us as well.
    Unfortunately, he had a leg injury that kept him from doing 
very much traveling, other than going from his office in the 
Rayburn, back down to the Floor to vote. So, he was very 
limited in his ability to walk and could not be here this 
evening.
    I've got a statement, I'm going to read it, it's going to 
take a little bit of time. I hope you'll understand, but by the 
way that we do these hearings it's very, very important to get 
our information down into a record, which is the best way to 
reflect what was said and done here, and the concerns of the 
citizens, the concerns of the Park system with regard to 
Yosemite, so that it can be equally expressed amongst the other 
435 Members in the House of Representatives and the other 99 
Members in the Senate.
    So, if you'll bear with me, I would like to do that, but I 
also want to say thank you to the National Park Service and 
also the members of the communities. In addition to Jerry 
Fischer doing such a wonderful job during this disaster, there 
were many other people in this community who dealt with this, 
and put the best face on what was a natural disaster. And, I 
think that we can all speak to it with a great deal of pride, 
that we are dealing with this problem in a positive way and not 
in a negative way.
    And, B.J. Griffin, from the Park's standpoint as well, I 
appreciate your concerns for the welfare of the outlying 
community and also your concern for getting the park up and 
running just as soon as you possibly can.
    So, with that, I'm going to read my very, very long 
statement, and then after that we're going to invite up four 
different panels to give testimony into the record.
    So, that is the way these hearings work, and I will go 
ahead and start off with mine.

     STATEMENT OF THE HONORABLE GEORGE RADANOVICH, A U.S. 
                 REPRESENTATIVE FROM CALIFORNIA

    Mr. Radanovich. Thank you very much for coming today to 
this hearing of the Subcommittee on National Parks and Public 
Lands to discuss the National Park Service plans for the 
restoration of Yosemite National Park following this winter's 
flooding.
    Before we begin, I would like to thank my colleague, Jim 
Hansen, the Subcommittee Chairman, for recognizing the 
importance of this hearing. I know that Jim had planned to be 
here today, but unfortunately, he could not make it. I would 
also like to thank and recognize, as I did, Senator Barbara 
Boxer, for taking the time to be here, and look forward to her 
support on the other side of Capitol Hill. Finally, I want to 
take the time to thank B.J. Griffin for her leadership in this 
critical time for the park. I'm looking forward to our 
continued excellent working relationship.
    As everybody here is aware, the record flooding of late 
December and early January has caused extensive damage to 
Yosemite National Park. Normally calm, the Merced River blazed 
a path of destruction along its banks as raging waters swept up 
campgrounds, sewer lines, employee homes, roads, and other 
facilities. This event resulted in the Park Service feeling 
compelled to shut down Yosemite for the longest consecutive 
timeframe in its 107 year history.
    The effects of this shutdown have been dramatic. More than 
1,000 employees of Yosemite Concession Services were laid off, 
with only 400 returning to work in recent days. Nearly 350 
rooms, over 400 campsites, and miles of backcountry trails 
remain closed. In addition, the concession service, from whom 
we will hear today, has reported losses between $8 and $10 
million. This has been the third major shutdown since 1995.
    Equally devastating are the impacts borne by the gateway 
communities surrounding the park, many of which I represent and 
live. Small business owners and their employees are suffering 
an unprecedented amount of hardship due to the closure and the 
limited access caused by the damaged portions of Highways 120, 
140, and 41. As of the end of January, estimates of the impact 
show a 40 percent decline in lodging projections, 15 percent 
for dining, and an over 25 percent decline in retail 
expenditures. In short, the problems experienced with the 
shutdown of Yosemite are continuing for the surrounding 
communities.
    But, with every cloud there is a silver lining. Out of this 
disaster comes a rare opportunity to address many of the long 
overdue changes identified in park plans and the relationship 
of the park to the surrounding communities. Moving campsites 
out of the floodplain and onto higher ground, for example, is 
the right thing to do. In addition, using the resources to 
reduce the backlog of rehabilitation and reconstruction of 
substandard facilities is also a laudable goal. Finally, money 
from the Emergency Relief for Federally Owned Roads fund, 
commonly referred to as ERFO, along with additional sources, 
can be used not only to repair existing road damage, but also 
to address some of the long-term stabilization needs, including 
the widening of Highway 140 and helping to implement a regional 
busing plan, as a step toward the long-term solution of 
reducing congestion in the Yosemite Valley.
    However, just as there exists a number of positive benefits 
to be derived in the aftermath of this tragedy, so too is the 
potential for problems. Addressing the long-term transportation 
needs of the park and the surrounding communities is an issue 
that can, and should, be included in the restoration of 
Yosemite. However, the proposal to implement a day-use 
reservation system as a means to reduce traffic in the park is 
a subject of great concern. Already the effects of this 
proposed system have been felt. The mere mention of restricted 
vehicular access to the park has triggered cancellations of a 
number of reservations in nearby hotels. This has, in effect, 
produced a negative double whammy for our communities who have 
come to depend on the increased tourism that the summer months 
bring.
    I express my concern for day-use reservations not because I 
fail to recognize the need for a reduction of the congestion 
both during construction and afterwards in Yosemite Valley, but 
because I believe that there is a better way to achieve these 
reductions without the loss of visitorship to the region.
    The Administration, as part of its supplemental 
appropriations request, has suggested spending $21 million to 
address short-term and long-term transportation needs in the 
Valley. The combination of a day-use reservation system and a 
parking facility in the Taft Toe region is essentially how they 
intend to spend this money. I say there may be a better way.
    In the short-term, there is no need for a day-use 
reservation system. Instead, the Congress, the Park Service, 
the State of California, and the surrounding local county 
officials should work together to construct and implement a 
transportation plan that addresses the needs of the park and 
the local communities without reducing people or paving the 
Valley floor.
    Given the importance of developing a regional 
transportation system which includes both local communities, 
the State, and park needs, we will work to ensure that any 
funds that are saved due to the construction efficiencies will 
be retained by the park as a commitment toward the ongoing 
regional and in-park transportation systems. It is important 
that both the regional and park needs are addressed with these 
funds.
    I challenge the Clinton Administration today to drop its 
day-use plan and work with the stakeholders to ensure that 
America's park is accessible to all Americans all of the time.
    On Wednesday, the Congress received the long-anticipated 
emergency supplemental appropriation request from the White 
House. I look forward to a thorough review of this plan and to 
working with the Administration as this process moves forward 
in the coming weeks.
    Thank you all, again, for coming here today. I look forward 
to hearing your testimony, as well as that of the elected 
officials and, most importantly, the citizens of the 
surrounding communities on the single most important issue 
facing our community today, the restoration of Yosemite 
National Park.
    Mr. Radanovich. Thank you very much, and with that I'd like 
to invite the first panel to come before us, and all we need on 
that first panel is one person, and that's B.J. Griffin, who is 
Superintendent of Yosemite National Park. B.J., it's all 
your's.
    Oh, let me do one thing, too, before we start. You'll 
notice there's three light bulbs on the counter here, they are 
all different colors. The green is for go, the yellow is get 
ready to stop, and red means stop. So, at best we can do, we'd 
like to adhere to that. I will not be real demanding on that, 
unless things would get out of hand, and I'm sure they won't. 
So, I would ask that you do your best to abide by the clock, 
and that would be on every panel that comes up here.

   STATEMENT OF BARBARA JO GRIFFIN, SUPERINTENDENT, YOSEMITE 
 NATIONAL PARK; ACCOMPANIED BY KEVIN CANN, CHIEF, MAINTENANCE 
                        AND ENGINEERING

    Ms. Griffin. Thank you very much, Congressman. It is, 
indeed, a pleasure to join you today to talk about the needs of 
Yosemite National Park, a park which is so near and dear to all 
of us certainly in this region and to the Nation.
    Joining me at the table, and would be ready to answer any 
detailed questions maybe in better detail, is Bob Andrews, 
Chief Ranger at Yosemite, and Kevin Cann, Chief of Maintenance 
and Engineering, but is also now acting as our Recovery Team 
Manager.
    As 1996 came to a close, Yosemite had a particularly heavy 
snowpack. On January 1st, a warm tropical storm moved into 
California. Heavy rains fell throughout the park. The 
combination of the rain and the warm weather and that deep 
snowpack resulted in one of the largest floods that the park 
has had. We have had many comparable events over the last 100 
years, but this was the largest one in the last five. There 
were 900 park visitors in the park and 1,200 employees that 
were trapped on three islands within the Valley. Employees and 
residents in El Portal, the primary administrative support 
facility for the park, were also isolated and cut off from the 
Valley and received significant damage.
    The natural environment of the park is adapted for periodic 
flooding. The structures and the infrastructure we have built 
in the park are not so well adapted. We lost major utility 
systems, we lost our sewer lines, there's a photograph of that 
up on the mantle, we lost the lift station that is associated 
with that sewer system, the water supply for the park was 
destroyed, and only one of three access roads was available to 
us at the time. We had a precarious electrical system and we 
were definitely in a tenuous and emergency state.
    In El Portal, the water system was severely damaged, and 
residents had to use bottled water. The sewer line to the 
housing and trailer village was destroyed. Highway 140 leading 
to the park and to Mariposa was impassable, and, indeed, is 
under construction as we speak today. Several other roads were 
severely damaged, but we have been able to repair those, and we 
reopened the park on March the 14th, using Highways 41 and 120.
    Late on January 3rd, 900 visitors in the park were 
evacuated by convoy. Then we began to understand the full 
magnitude of what we were facing. We did three things. We 
called in a Type 1 Incident Command Team to deal with the 
emergency that faced us. We could not get many of our employees 
to the park, because they were trapped in El Portal. The second 
thing we did was we began to talk with the leaders of the 
community and congressional delegation and showed people the 
extent of the damage, because we knew we were in for a long 
haul, and we wanted people to understand what we were faced 
with doing, and what it was going to take to mend it. The third 
thing we did was evacuate 500 of the Concession employees that 
were not directly involved in the emergency recovery effort. 
The problem we had with people that were not in the Valley 
employed on the emergency was the fact that it overburdened the 
non-functional sewage system and the water system, and we had 
to get down to minimum numbers in order to survive. By the end 
of the first week of January, the population in Yosemite Valley 
was reduced to about 300 emergency personnel.
    From this point one of our main goals was to make the park 
safe for a reopening. On January 21st we did, indeed, open the 
southern end of the park. Shortly after that, Cinquapin and 
Badger Pass, and then the northern end of the park up to Crane 
Flat. And, as I said, on March the 14th we were able to open 
Yosemite Valley to visitors. Highway 140, however, was so 
damaged that the reconstruction of that road is going to take 
quite a while. We will work on it until Memorial Day weekend 
when we'll have two temporary lanes in, then we will be able to 
have normal traffic, and then there will not be a one-year 
closure, we will always have controlled traffic on Highway 140, 
when after Labor Day we will start the permanent fix of that 
road.
    Mr. Radanovich. B.J., say what you need to say, don't worry 
about that yellow light, we're going to just turn that thing 
off.
    Ms. Griffin. The one thing I know that everybody is 
concerned about is the day-use reservation system, and it is 
not the way that we would go about business in designing the 
system that we are considering. Because of the emergency, we 
were not able to get out to the communities and take public 
comment as we would on any major policy change. I welcome the 
opportunity to mention the details of the system so that people 
will better understand what we are talking about, but I think 
the important thing for people to understand is that we are not 
trying to reduce the numbers of visitors to Yosemite National 
Park, we are trying to reduce the number of vehicles. Because 
of the recovery effort and the parking problem, we will not be 
able to recover as fast if contractors are not able to get 
around on the roads. We have to do something to limit the 
numbers of vehicles that are on the congested areas of the 
Valley.
    We don't intend also to, like I said, limit visitors, 
because the main thing we want to do is let people come in on a 
bus if they can't get a reservation to bring their vehicle in. 
Also, we are looking into a weekend reservation system only, 
rather than the seven-day, full-time reservation system that we 
had originally thought about.
    This is a lot of money that we are asking for, and we 
recognize that. Some of the money, probably over $90 million of 
it, represents constructing facilities in the proper place, 
rather than going back into the flood plain and repeating 
mistakes of the past. It is a lot of money, I appreciate 
everyone's support, and I think we all can agree that Yosemite 
is worth it.
    I do have a statement to enter for the record, and I'm 
happy to answer any questions that you might have.
    [The statement of Ms. Griffin may be found at end of 
hearing.]
    Mr. Radanovich. Great, thanks, B.J., and I've got a number 
of them just to lay a few things down in the record, and then 
wanted to bring up a few others, perhaps. A number of concerned 
citizens have suggested that the appropriations request, at 
least in the emergency legislation, is inflated. Can you 
provide data that shows what you used to develop your request, 
so we can back it up and verify it and provide it for the 
record?
    Ms. Griffin. Yes, absolutely.
    As I mentioned, we brought in professional engineers, 
architects, road engineers and resources people immediately to 
start looking at some 350 separate facilities that needed to be 
repaired. We had some very good estimates, because pre-flood we 
had been working on the Valley Implementation Plan, some 
elements around the rim here, and we had just had those 
facilities estimated, many of which were damaged in the flood. 
So, we had very fresh and good estimates on that.
    Fifteen to 20 percent of it is a normal remote site factor 
that would go into any of our estimating. We have used 30 
percent, and the reasons for that are that California, the 
extent of the flooding in California has caused widespread 
demand for contractors and materials, and that makes a 
difference. The remoteness, again, is a problem here in 
Yosemite. When the roads are impassable and contractors loaded 
with materials have to wait to get through for convoys and 
things like that, it adds to the cost. So, we have used a 30 
percent remote factor.
    Of the $176 million, $123 million is previous flood--due to 
previous floods for various projects and plans, like I said, it 
was estimated, so a good majority of it had professional 
estimates, even pre-flood.
    Thirty-one percent of the money is for the supervision and 
contingencies that we put on all of our projects, so we've 
built in the remote factor and the factor of the lack of 
competition that's out there right now because of what's 
happened to California statewide.
    Mr. Radanovich. B.J., what if, you know, down the road we 
get this appropriation approved, it's in the law, you got the 
funds that you requested, I guess my question is what happens 
if any of those funds are not used for a particular project, 
can they be set aside for, perhaps, designated purposes, like a 
Yosemite transportation system or something that is a use that 
stays within the park but can be used for such projects that 
might lead toward the solution of the day-use traffic problem 
or the congestion in the park, is there any set-up to do that 
right now, or what's the possibility of being able to do 
something like that?
    Ms. Griffin. The budget process in Washington is one that I 
don't know the fine points of. However, normally what happens 
is that each of these is treated as a line item in itself, and 
that if we didn't do a project, or it came in under bid, then 
that money would just go back to Washington. So, it could be 
that something would need to be written into the appropriation 
to allow for that.
    Mr. Radanovich. And, if it was written in the 
appropriation, you would support, I'm sure, funds to be used 
for--that would work toward the overall solution of the traffic 
problem in Yosemite.
    Ms. Griffin. Oh, absolutely, that's our goal in all of our 
planning, and has been for the last 17 years.
    Mr. Radanovich. OK.
    What incentives are you intending to include in any 
proposed contracts to ensure that the proposed work is 
completed on time, or sooner, and within budget or below 
budget, are there any special incentives that you will be 
offering to contractors in order to speed the recovery along a 
little quicker?
    Ms. Griffin. We will take advantage of any opportunities 
and authorities that we have for sole source, design/build, 
things of that nature, but Kevin Cann can probably speak to 
that in more detail.
    Mr. Cann. Well, specifically, for the larger projects, and 
the road projects in particular, we are trying to build in 
contractor performance incentives, which have proven, as our 
report referred to earlier in the Northridge earthquake, to cut 
project development and performance times as much as in half. 
So, we have built that into our estimates right now.
    Mr. Radanovich. OK.
    Mr. Cann. On the larger projects, not so much for the 
$15,000.00 projects.
    Mr. Radanovich. OK.
    Time incentives as well, in order to give bonuses for 
earlier due dates, those kind of things?
    Mr. Cann. Time incentives primarily.
    Mr. Radanovich. OK, very good, thank you.
    What portion of the proposed funds are for the recovery 
from the January flood, as opposed to improvements proposed 
under the GMP or related documents? Do you have a figure, a 
percentage figure, as to what goes where?
    Ms. Griffin. About $94 million of the money is to build 
things according to the General Management Plan that were 
damaged by the flood. In other words, instead of going back in 
and repairing in place, build them outside. There's about, as 
far as the Valley Implementation Plan, which is the Valley 
portion of the General Management Plan, there's about an 
estimate of about $299, call it $300 million, to complete that 
General Management Plan detailed study, and probably--there's 
about $108 million in this request, so you are accomplishing 
about a third of what the General Management Plan called for to 
happen in the Valley.
    Mr. Radanovich. OK, thank you.
    Also, recognizing that the General Management Plan was 
developed about 17 years ago, at least that was the beginning 
of the General Management Plan, are there any changes that have 
happened since then, and do you see a need to--in your belief, 
does the General Management Plan affect or incorporate the 
outlying communities of, perhaps, Sonora, Oakhurst and 
Mariposa, as being means of solving problems like 
transportation, do you think that's adequately addressed in the 
GMP, or is it something that if it's not do you propose ways to 
incorporate the outlying communities into some of those 
solutions?
    Ms. Griffin. Yes.
    Mr. Radanovich. For example, traffic.
    Ms. Griffin. Right. The General Management Plan, go back to 
that, talked about having parking lots, used examples, Crane 
Flat in the park, El Portal, and remote sites that were within 
the boundaries of Yosemite National Park.
    The refinement of that thinking over the last several years 
has been that we would love to be able to get day-use 
automobiles eventually out of Yosemite National Park. 
Therefore, we would look to a regional transportation system 
that's now being studied by YARTS, Yosemite Area Regional 
Transportation Strategy, to deliver people to Yosemite National 
Park, and then we would put them on a Valley shuttle system so 
that we would have an automobile free park. That would be the 
vision.
    Mr. Radanovich. B.J., too, in discussions we had even 
earlier before this meeting, there was discussion and relative 
consensus, I think, can be reached between the outlying 
communities and the Park Service as to the overall traffic 
solution and transportation solution to Yosemite Valley inside 
the park, which would be a combination, I think, of 
improvements that would be developed through this emergency 
appropriations for you to solve your traffic problems inside 
the park boundary, but also something--and would be done in 
such a way that would dovetail with the regional transportation 
program developed by the outside communities, for example, 
through YARTS, and one would dovetail with the other, that 
would in the long run provide an answer to probably one of the 
most difficult problems facing the park, and that is 
congestion, particularly during Memorial Day and Labor Day 
weekends.
    And, I guess not so much as a question, but as a statement, 
that I think that we are in sync with the development of a 
long-term plan such as that. When I was confronted by some of 
my constituents in communities that had a problem with the 
imposition of a day-use reservation system immediately, was 
that the short-term solution, by using a day-use reservation 
system, may lend to further devastating the economies of 
Mariposa and Oakhurst, Mariposa and Madera Counties in 
particular, because of the immediate impact.
    And, while I think that there's consensus on the 
development of a long-term program, which I know we can work 
toward, there is the problem of how do we take care of the 
park's needs, being limited by the damage from the floods, but 
also the community needs of Mariposa and Oakhurst, by making 
sure that they can recover just as quickly as possible from the 
park closure of January 1st.
    I guess my question is, are you willing to take a look at 
this and give some flexibility in negotiating over these next 
couple of weeks to ensure that we can devise a plan that meets 
the needs of the Yosemite Valley, but also can enhance the 
economies at the same time in Mariposa and Madera Counties?
    Ms. Griffin. Yes, I think there's two things that I'd like 
to talk about. The reservation system that we are considering, 
and it should be mentioned here that the transportation element 
that's in the funding leads us to that long-term goal, albeit a 
phased approach, the Valley Implementation Plan will be a full 
public involvement planning process. That will include the 
transportation plan and how to solve it in Yosemite, and we'll 
have a range of options that we will lay before the public some 
time in May, that will go through the normal process in 
reaching a consensus conclusion. And, I think the communities 
will definitely be a part of the dialog and a part of the 
solution.
    As far as the day-use reservation system is concerned, what 
we are faced with is, basically, two options. We can do a 
reservation system, as we have talked, and be happy to talk 
about the details of that, or we can fall back on what was not 
a very satisfactory process that we've used in the past, and 
that was gate restrictions. In other words, when the numbers of 
car that can be tolerated before you get complete gridlock 
passed through the gates, then we just simply closed the gates, 
and the unfortunate thing about that is that's also 
economically devastating to the communities.
    So, we were trying our very best to deliver the best 
service to the visiting public, which I think really is the 
win/win for everybody here, and in doing the reservation 
system, we felt that the public would be better served by 
knowing before they left home if they were going to have to 
take a bus into the park or if they were going to be able to 
bring their automobile in.
    And, yes, there are many details and aspects of restricted 
access to the park that, again, is for vehicles, not for 
people, that we can talk about.
    Mr. Radanovich. B.J., we were discussing the possibility of 
providing an emergency bus system actually this summer, as a 
means of, you know, in approaching the National Park Service 
and saying that, why don't you use an emergency bus program, 
rather than a day-use reservation system, as a means of 
alleviating the traffic concerns, but, in turn, being able to 
bring as many people into the park and enjoy the park on a 
daily basis.
    What if we were able to develop a bus system tomorrow that 
brought all these people in and turned them loose in the park, 
would you be able to handle a facility like that?
    Ms. Griffin. No, that's actually what the extra money, 
between the $178 original proposal, and the one that's before 
you that the White House introduced, is for, because the fact 
that if you were to bring in all visitors, day-use visitors 
into Yosemite on a bus, you would, basically, drop them at the 
village, right there, you would put them in that parking lot.
    Mr. Radanovich. Right.
    Ms. Griffin. At the Village Store, and there they would be 
with their bicycles, and their coolers, and their rafts, and 
all the things that they bring for a day visit, and no place to 
put them, no place to get them around on shuttle buses. We are 
not equipped on this end yet to deal with busing people in 
total into Yosemite, and that's one thing that would be solved 
by the extra money. It would put a facility in place that could 
deal with the bus traveler and everything that they bring.
    Mr. Radanovich. But, you agree, too, that once your 
transportation situation is fixed inside Yosemite, that the 
best way to deal with the traffic problem is by complementing 
your interior system by a well-developed regional system along 
the outside of the park boundaries.
    Ms. Griffin. We agree on that.
    Mr. Radanovich. Exactly, OK.
    Now that we agree on the long-term solution for the park, I 
guess the question is how to best meet the needs of the 
outlying communities and the park's traffic problems during 
this upcoming tour season, and, frankly, I can't tell--I could 
not say whether gate closures would be better than day-use 
reservation systems, hopefully, we'll hear that from members of 
the community as we begin to work forward to develop the best, 
the very best solution that we possibly can for the park and 
the outlying communities for these next six, seven months.
    So, with that, I thank you very much for your testimony, 
and appreciate your being here.
    Ms. Griffin. We look forward to hearing from that.
    Mr. Radanovich. OK, fine.
    Thank you, and I will now call the next panel up, that 
consists of Senator Dick Monteith, Senator from the State of 
California from the 12th Senate District; Garry Parker, 
Supervisor, Mariposa County, District 4, a familiar one to me, 
and those are our two witnesses. And also I would like to 
recognize other members who are here, Assemblyman George House, 
the 25th Assembly District, George, if you'd like to be 
recognized, and also the 4th District Supervisor for Tuolumne 
County, Mark Thornton. Mark, you are here somewhere, I think, 
and also, Harry Baker, Supervisor of Madera County. Harry, 
welcome.
    Dick, do you want to get things rolling?

 STATEMENT OF SENATOR DICK MONTEITH, STATE OF CALIFORNIA, 12TH 
                        SENATE DISTRICT

    Senator. Monteith. Congressman, I want to thank you for the 
opportunity to be involved in this forum. As you know, the 
Yosemite area is a very important portion of the 12th Senate 
District, in fact, all the entrances, except for one, are in 
the 12th Senate District. And, we are aware of the value of the 
park, everybody in the surrounding communities, everyone in the 
State, and I believe everyone in the Nation is aware of the 
importance.
    What we are concerned about is the economic situation 
involving the people in the surrounding communities. We have 
concern, and I have concern with the daily-use reservation 
system, as what has been discussed slightly before. I do 
understand that we need long-term planning. One concern that I 
have is the fact that, are we going to have to come up with a 
plan before we let people in? Is this long-term planning going 
to prevent people from participating within the park for a 
year, two years, three years? Tourism is set up on an annual 
basis, and as time--people feel they do not have the 
accessibility, tours are set up into other portions of the 
State, so we are not looking at just a viable situation for six 
months. Six months can mean that people will not be back for 
another two years, so we have some feelings and questions of 
how long that may take.
    Everyone is concerned about restoring Yosemite, and we are 
concerned about how the appropriations are going to go, we are 
concerned about the long-term benefits of the park, and the 
surrounding communities. We also have some concern about the 
traffic plan, and we believe that in all of these concerns that 
I'm mentioning that the surrounding communities should be 
involved. I'm hoping that we don't end up in a situation where 
it's an either/or situation, which means this is how it's going 
to be done, take it or leave it. I believe that we should 
realize it is a partnership with the park and surrounding 
communities, so that we can address this as a unit together, 
and not end up in squaring off, if I may use that term, but to 
work beneficially, and I think that's extremely important.
    There, perhaps, may be several different goals, as far as 
the park is concerned, and maybe some of the goals as far as 
the communities, but the basic goals are the same, that we all 
realize that the value of Yosemite Park is extremely important, 
and everyone is trying to look out for the best interests of 
the park, but I believe with that is included in the interests 
of the community, because whether or not some people want to 
recognize it or not they are part of the park today. It's not a 
question of if they will be, but they are. And so, those are 
the major concerns that I have and people that I've talked to, 
and we are hoping that with this hearing, and the possibility 
of sitting down and discussing various solutions to the 
problems, that we'll be able to go forward and work in a 
cooperative partnership manner.
    Thank you.
    Mr. Radanovich. Thank you, Senator.
    [The statement of Senator Monteith may be found at end of 
hearing.]
    Mr. Radanovich. Garry, welcome.

    STATEMENT OF GARRY PARKER, SUPERVISOR, MARIPOSA COUNTY, 
                           DISTRICT 4

    Mr. Parker. Thank you, Mr. Chairman.
    Mr. Chairman, before I begin, we have submitted a long 
version of our testimony, with supporting documentation, due to 
the time restraints I'm going to give yourself, the panel, a 
shorter version of that, so if I might just read this.
    Mr. Chairman and Honorable Members of the Oversight 
Committee.
    Welcome to Mariposa County, home of Yosemite National Park.
    My name is Garry Parker, and I'm a Mariposa County 
Supervisor. I represent District 4 and the majority of the town 
of Mariposa.
    The floods of 1997 have been devastating to Mariposa 
County, as well as Yosemite National Park, particularly the 
economy of our County and its residents. For your information, 
in Mariposa County, on an annual basis, the transient occupancy 
tax derived from tourists staying in lodging facilities 
represent 14 percent of our County's total budget, which is 
about 50 percent of the County's discretionary income. There 
are a number of issues being proposed by the Park Service that 
could potentially be as devastating as the floods themselves, 
to the economic well-being of the surrounding counties. The 
primary issues which are creating a tremendous adverse effect 
on the surrounding communities are: (1) The Park's announcement 
of a day-use reservation system to be effective in May, 
although it is clear that there is no organized plan for a day-
use reservation and there was no plan of any kind for the day-
use reservation system at the time the announcement was made; 
and (2) The proposed restriction on use of Highway 140 by the 
public.
    Park Service officials have stated that surrounding 
communities should not be dependent upon Yosemite Valley for 
their economic survival. It appears that without substantial 
tourist-oriented investments in the surrounding communities 
there would be overwhelming pressure to change the very nature 
and use of Yosemite National Park to better cater to the 
visitors within the park boundaries. In truth and in fact, the 
surrounding communities are partners with the Federal 
Government, relative to Yosemite National Park. It is time the 
Park officials recognize this fact and act upon it. It is time 
the Park officials take into consideration the impacts their 
decisions have on surrounding communities, and it is time to 
stop making decisions without appropriate input. I believe that 
the Federal Government does have a responsibility to ensure 
park officials do not make arbitrary decisions which have had 
no public input and which adversely affect our citizens.
    Regarding the proposed day-use reservation system, which is 
being highly publicized, there are presently no answers to the 
questions of implementation. I do not believe that Park 
officials have the understanding of the tremendous adverse 
effect their statement that a day-use reservation system will 
be implemented by May has had on the surrounding communities.
    On March 11, 1997, the Mariposa County Board of Supervisors 
unanimously adopted a resolution taking the following position: 
(1) opposing the fast track implementation of a day-use 
reservation system in the immediate future and offering to work 
with the Park Service for future implementation so that it can 
be a viable project; (2) supporting an incentive for public 
transit such as a $2.00 entrance fee per person riding a public 
transit vehicle; (3) Highway 140 should be open to all traffic 
by use of a private car system every day of the week for a two 
hour period in the morning and again in the evening, with a 
suggestion of keeping the highway open until 8:00 a.m., 
commencing on March the 15th, and continuing until Highway 140 
is open to unrestricted traffic; (4) a commitment that the 
County will continue to support public transit alternatives and 
lobbying for long-term funding for a transit system, whether it 
be in support of YARTS or any other mechanism; and finally, (5) 
requesting a meeting with Park Service officials that have 
authority to make decisions and provide answers with local, 
State and Federal representatives. The March 11 action shows 
the total commitment of Mariposa County to work with the Park 
Service to resolve these problems in the best interests of, not 
only Yosemite National Park, but the surrounding communities as 
well.
    Mr. Chairman, what we are asking for is not unreasonable. 
We are simply asking to be included in any major decisionmaking 
process that directly affects our citizens. No agency or 
department should be allowed to become an entity unto itself. 
We must all work together to achieve a united goal.
    Thank you, Mr. Chairman, for the opportunity to address our 
concerns.
    Mr. Radanovich. Thank you, Garry.
    [The statement of Mr. Parker may be found at end of 
hearing.]
    Mr. Radanovich. Let me ask a couple questions. A bus with 
30 people, it probably is not going to have the same impact as 
15 cars with two people in them each on Yosemite Valley, would 
you agree?
    Mr. Parker. Right, I would agree.
    Mr. Radanovich. Right, and so, if currently the entrance 
fee or the gate fee is $20.00 per vehicle in the Yosemite 
National Park, you would see an incentive if that fee was, 
perhaps, maintained on vehicles, but at the same time be a 
token, little or no, fee for buses that take people in the park 
eventually.
    Mr. Parker. Yes, Mr. Chairman, as long as that was tied in 
to an actual transit system.
    Mr. Radanovich. Right.
    Mr. Parker. The incentive, of course, would be to get 
people out of their vehicles in the surrounding communities and 
get them on to a public transit, so they can come in and enjoy 
the park.
    Also, the issue there is what to do with the vehicles, the 
buses, once they are inside the Valley. If it's a well-
organized transit system, those buses will not just be brought 
in and parked as a tour bus might be, it would actually be 
making routes and so forth. So, I could see that where it would 
be of tremendous benefit to the park, as well as the 
surrounding communities.
    Mr. Radanovich. Another issue, Garry, then is with regard 
to day-use reservations or the day-use reservation system. Do 
you agree that it's not so much the consideration of the day-
use reservation as it is it's a consideration of the day-use 
reservation system during this upcoming tour season, and I 
guess my question is, if you agree, is that, the idea of 
implementing a day-use reservation system may not be a bad idea 
if it were, perhaps, started next summer instead of this 
summer, or after this upcoming tourist season, which is so 
critical to everybody after the park being closed down. Do you 
agree with that?
    Mr. Parker. Yes. Mr. Chairman, yes, I do. To expand on that 
a little bit, I think what I'd have to say is, it's very 
confusing to the public out there. They really don't 
understand. It's very difficult for the lodging industries to 
try to book tours, if that's what it comes to. They don't have 
any answers to give anyone. I think that, ultimately, we could 
move in toward that kind of a system, but it needs to be a 
well-planned system.
    Mr. Radanovich. OK.
    Mr. Parker. And, instead of implementing it immediately, I 
would much rather see us work together and come up with a 
program that is workable for all, and if that takes a year, so 
be it.
    Mr. Radanovich. Yes, and it could be that a day-use 
reservation system is the answer.
    Mr. Parker. It could very well be.
    Mr. Radanovich. But, we need the time to be able to work 
into it, and certainly not when it impacts us starting Memorial 
Day of this year.
    Mr. Parker. Absolutely.
    Mr. Radanovich. OK, great.
    Senator, thank you so much, Garry, thank you very, very 
much.
    Mr. Parker. Thank you, Mr. Chairman.
    Senator. Monteith. Thank you.
    Mr. Radanovich. OK.
    With that, we'll call panel three, Gary Fraker, President, 
Yosemite Concession Services; Tiffany, if I'm correct, Urness, 
Research Program Manager for the California Division of 
Tourism; and also Peggy Kukulus, please correct me if I'm 
wrong, Executive Director of the Yosemite Sierra Visitors 
Bureau.
    Peggy, did I get your last name right?
    Ms. Kukulus. Kukulus.
    Mr. Radanovich. Kukulus, sorry.
    Ms. Kukulus. Close.
    Mr. Radanovich. And, Gary, welcome. I do want to point out, 
Gary Fraker, as well, has done a remarkable job, being severely 
impacted and having to lay off an incredible amount of people, 
the service that you provided during the disaster of January 
has just been remarkable as well, and I really want to mention 
that to you now as you begin your testimony, but you are much 
appreciated by a lot of people, and we thank you very much.
    Gary, you may begin.

   STATEMENT OF GARY FRAKER, PRESIDENT, YOSEMITE CONCESSION 
                            SERVICES

    Mr. Fraker. Yosemite Concession Services is the primary 
concessioner in Yosemite National Park. Prior to the flood, we 
employed 1,800 people in peak season and generated nearly $100 
million in annual revenues. This is the third year of a 15-year 
contract with the government to provide a variety of services.
    Without a doubt, our company and its employees have 
suffered and continue to suffer direct and staggering losses as 
a result of this flood. Up to this point, we've lost 
approximately $10 million in revenue over the course of this 
event. Over the course of the year, we stand to end up between 
$30 and $40 million less than our projected revenues. Our 
future revenues are even more alarming. The bulk of our 
earnings are derived from overnight guests.
    We knew coming into this contract that there would be 
changes in operations, and we embraced those as part of the 
contract, but the understanding, I think, was always that we 
would probably build and we would use the old facilities until 
the new were built, then we would move into the new and we 
would remove the old facilities. Well, obviously, that can't 
happen here, so it has the impact of having a kind of a double 
knock-out punch, a reduction in our facilities and at the same 
time a lengthy wait before replacements are built. Combined 
with anticipated reductions in day use, the potential earnings 
are a shadow of what we expected in our contract.
    On the human side, many employees suffered great personal 
loss, 250 lost everything but, literally, the clothes on their 
back. The majority of these employees were mostly hourly, paid 
between $6.00 and $8.00 an hour, and most were uninsured. 
Compounding their personal losses was the loss of their jobs. 
In less than a week, our staff went from 1,100 employees to 
100.
    Fortunately, after these ten weeks have passed, 750 of 
these employees have returned to work. Others are still 
waiting, some I doubt if we'll ever have jobs for. We estimate 
that our peak summer work force will be about 1,300 employees 
this year, which is about 70 percent of normal.
    The impacts to our operations are so wide ranging it's very 
difficult to summarize. We have purchased 84 modular employee 
units that we are transporting into the park and will be 
erected in the next couple of weeks. This will help juggle with 
some of the problems in housing that we have, and which jobs 
will be necessary.
    In addition to this, we estimate that we are going to need 
about 100 to 150 guest facilities to house our employees on 
this temporary basis for the next year or two. This will come 
out of existing facilities in Curry Village.
    Due to the uncertain conditions of Route 140, many of our 
employees that are available to us as commuters no longer can 
depend on that as an option. We feel that that's going to have 
an impact and reduce our labor pool.
    On top of that, just the psychological impacts of the flood 
have been significant as well. We've lost many fine managers 
and employees as a result of this that have found other 
employment, and they've just decided to stay out of the park, 
and I think many employees are just so worried about all the 
unknowns that they have just made the choice not to return.
    In lodging, nearly 250 guest rooms and cabins at the lodge, 
half the property's inventory, 20 percent of our park-wide 
rooms were affected by the flood. In addition, 400 campsites in 
Yosemite Valley will not open this year. We don't manage the 
campgrounds, but the reduction in overnight guests will 
translate to fewer people enjoying the restaurants, the tours 
and the shops, facilities that recently we spent, in 
conjunction with the Park Service, millions in refurbishing.
    At this time of the year, our reservations office would be 
answering thousands of calls a day,guests trying to book rooms 
for spring and summer. Since 250 of the rooms that are 
normallyavailable and booked are out of service, in addition to 
10009150 rooms that we'll have to use foremployee housing that 
belong to guests normally in Curry Village, our reservations 
agents areplacing calls to guests with reservations to help 
them adjust to the changes. We estimate that200,000 guests will 
be impacted this year alone. Hundreds of thousands of dollars 
in refunds arepresently being processed and returned to guests 
that we're canceling reservations for.
    The high country, as you all know, with the average 
snowpack and the amount of water so far above where it was 
before, we don't know what's going to happen up there. That 
could impact another 10,000 guests.
    In recreation, many of the guests are asking, what can we 
do. Trails and bridges destroyed, which reduces recreational 
opportunities, the stables operation will not open in Yosemite 
this year, or Wawona, due to the heavy snowpack we don't know 
at this point what will happen in Tuolumne. We'll not be able 
to offer bicycle rentals probably until April 1st, due to the 
condition of some of the bike paths and the repairs that are 
ongoing right now.
    In summary, we are just, we, like everyone else, are faced 
with many challenges--many factors that affect our operations 
are undecided. It's extremely difficult for us to develop an 
operating plan and to keep our customers informed. Our 
immediate goal, within the confines of our agreement with the 
National Park Service, and, of course, all the plans that are 
involved, is to just return to providing a full array of 
services for the park guests as quickly as possible.
    Thank you.
    [The statement of Mr. Fraker may be found at end of 
hearing.]
    Mr. Radanovich. Thank you. I'm going to reserve questions 
until the whole panel is done speaking, so with that, Tiffany, 
welcome to the hearing.

    STATEMENT OF TIFFANY URNESS, RESEARCH PROGRAM MANAGER, 
                 CALIFORNIA DIVISION OF TOURISM

    Ms. Urness. Thank you, Mr. Chairman.
    The California Trade and Commerce Agency, Division of 
Tourism, acknowledges Yosemite National Park as one of the 
State's most renowned and cherished attractions. We consider it 
one of California's most memorable icons, and recognize it as a 
world treasure that deserves special protection.
    We appreciate the efforts to repair flood damages and 
restore public access to the Park, and express thanks to 
Superintendent B.J. Griffin for her considerate response to 
affected communities in the aftermath of this disaster. 
Fortunately, not all the consequences were negative. Nature has 
washed away facilities that were planned to be phased out 
anyway.
    But, we are very concerned about the suddenness of their 
removal and the effect this will have on California visitors, 
communities and businesses that are dependent upon access to 
Yosemite National Park.
    Our two principal concerns today regard the eventual 
restoration plans and their implementation. First, we urge that 
in planning for immediate Park operations every consideration 
be given to the impact on surrounding communities and counties. 
Communities along each access route to the Park have had close 
economic ties to Yosemite even before its establishment as a 
National Park, serving as a source of supplies, guide services, 
emergency services, food and lodging, public services and 
communication with the outside world. Many decisions that are 
well within the discretion of Park management can affect 
thousands of jobs and businesses in outlying regions as well as 
important local services that are supported by tax revenues 
generated by people traveling to and from the National Park.
    Our purpose in testifying is not to tell the Park Service 
how to manage its facility. Our emphasis here is that since the 
Park Service affects the lives of so many beyond Park 
boundaries, the needs of the surrounding communities must be 
taken into account. We feel that by working and planning in 
consultation with these communities, their needs can be 
accommodated without significant detrimental impacts on 
sensitive resources.
    Second, we are concerned about the effect of this disaster 
on businesses which arrange and facilitate travel bookings, 
such as tour and motorcoach operators. The travel and tourism 
system depends on good communication and advance planning on 
the part of numerous parties. Booking contracts are typically 
made two years or more ahead of the travel seasons. If this 
system is interrupted, disrupted, or appears unpredictable, 
tour operators could very well decide to book elsewhere, 
resulting in significant economic losses to the entire State. 
This is because Yosemite is often a key itinerary element in 
multi-destination tours. Operators will not want to risk 
developing and promoting a tour which includes Yosemite unless 
access to the Park can be guaranteed. If these advance 
guarantees cannot be given, through a system of booking advance 
reservations for rooms and park admissions, communities and 
businesses in the immediate vicinity and many hundreds of miles 
away, which otherwise would have been on a six or 14 day 
California itinerary, may become victims of the cancellation of 
these tours.
    We support the need for controlled access. Our concern is 
for how it is implemented. There needs to be coherently, 
considerately, and consistently-applied policy, that will give 
assurance to hotels, motels, and motorcoach operators that 
their guests will have reasonable access to Yosemite.
    Thank you.
    Mr. Radanovich. Thank you very much.
    Welcome, Peggy.

STATEMENT OF PEGGY KUKULUS, EXECUTIVE DIRECTOR, YOSEMITE SIERRA 
                        VISITORS BUREAU

    Ms. Kukulus. Thank you for allowing me to speak on behalf 
of our Supervisor, Harry Baker, District 5.
    I submitted a document which outlines the losses of the 
Madera County area, which would be the Oakhurst Area, Highway 
41 Corridor has experienced over the last 90 days. Basically, 
we're missing about 20,160 tourists that would have generated 
about $919,000.00 in lost revenues for domestic travelers, and 
our international, which is a big concern to us, we're missing 
about $532,000.00 that they would have spent in the area.
    I also agree with Tiffany, in that the tour operators often 
will book National Park sequence, and I am very concerned if 
they lose one of the parks that there would be an inclination, 
I'm sure that they would, perhaps, not experience the whole 
tour.
    I'd also like to read briefly from a letter that was 
submitted to you by Steve Welch, which is basically in 
agreement with what we are feeling. Two recent articles, one in 
the recent Fresno, and one in last weekend's USA Today stated a 
day-use reservation system will be implemented this season in 
Yosemite, but the Park Service still does not know how it would 
actually work.
    Apparently, they have ignored logic and the many pleas from 
the surrounding communities to at least postpone the 
implementation of a system until an adequate shuttle 
alternative is in place and there is sufficient lead time to 
notify all the affected visitors.
    The Park Service's insistence on a hastily thought out day-
use plan creates an emergency in itself and creates the 
impression that they are seizing on January's natural emergency 
to implement their own agenda at the expense of the park 
visitor and the surrounding communities.
    For various political and fiscal reasons, most provisions 
of the 1980 Master Plan have not been implemented. Are we going 
to be forced now, under the guise of an emergency, to accept a 
solution thrown together in a few months, when one has not been 
completed in the last 17 years?
    With the funding that you have proposed, this is an ideal 
opportunity to find an overall comprehensive solution to the 
vehicle problem in Yosemite that will serve the visitor, the 
surrounding communities, the concessionaire and the Park 
Service. However, a simplistic, last minute day-use reservation 
system for this season is not the answer, since I believe it 
will create more problems than it will solve.
    For the sake of all of us in the surrounding communities 
and the thousands of unrepresented visitors, whose stay will 
adversely be affected by this, we would appreciate your 
continued opposition to a day-use reservation system this year.
    Mr. Radanovich. Thank you very much.
    Gary, I do have a question, and that is, given the problem 
the Park Service has this summer, due to the fact that the 
damage will exist in the Park for a while, and so, therefore, 
need to limit the traffic in the Valley, do you support the 
5,100 per car limit in there, or do you have suggestions of how 
the Park Service might be allowed as many people as they 
possibly can to come and enjoy the services of Yosemite 
Concession Service, while not, you know, overburdening the 
infrastructure, the damaged infrastructure that's there. Do you 
have suggestions? Do you support the 5,100 per car limit, or do 
you have other ideas of how they might be able to do it?
    Mr. Fraker. Well, I support overall the guidelines that 
have been in place for some time, and I think those numbers are 
pretty much holding.
    What we, of course, didn't realize, like everybody else, is 
that we would be looking for some reduction to that in 
conjunction with all the construction that's going on, and also 
in conjunction with the waiting until Tuolumne Meadow opens to 
get back up to that count. So, that certainly will have a 
negative impact, yes.
    Mr. Radanovich. And, the existing policy was basically the 
swing the gate policy or the gate closure policy, as it reached 
a certain amount of cars. I think prior to that it was up 
around, if I'm not mistaken, about 7,000 vehicles, now being 
reduced to 5,100, once that was reached then the gate would 
close?
    Mr. Fraker. Well, I think originally it was based more on 
the people, as opposed to cars, and so you have to come up with 
a formula to equate it to cars, and I think what the Park 
Service has done is--the formulation appears to me to be sound, 
so it looks like the numbers are approximately the same as what 
was in those plans.
    Mr. Radanovich. Would you agree to a gate closure policy 
rather than a day-use reservation system?
    Mr. Fraker. I personally think that we should be looking 
toward the longer range, and looking toward a day-use 
reservation system. I have concerns, like the surrounding 
community, with regards to the speed of bringing in a temporary 
system, but when I look at the alternatives, i.e., you come to 
a certain point in the morning, 10:00, 11:00, and you slam the 
gates shut, well, that's not a very good alternative either.
    Mr. Radanovich. Right.
    Mr. Fraker. So, I would think the longer range solution is 
to try and come up with a more effective plan.
    Mr. Radanovich. OK, thank you.
    Tiffany, as a reaction, I think, to some of the frustration 
the lodging industry is feeling right now, they are booking, as 
you may know, through the Office of Tourism, motels generally 
book their rooms in advance by three, four, five months 
sometimes with tour groups that are either coming in overseas 
and such. Do you agree that with a day-use reservation system 
that it would make it very, very difficult for the lodging 
industry to be able to guarantee their residents, who are 
coming in to see Yosemite, that, in fact, they would be able to 
see Yosemite?
    Ms. Urness. I don't think we are going to comment on the 
specifics, but if you are working in consultation and 
coordination with the surrounding communities, and with the 
affected businesses, that will be the best way to come up with 
a plan.
    We know what the characteristics of a system would have to 
be: it would have to be predictable and it would have to allow 
for advanced bookings. It would have to allow for visitors that 
are some distance away to know ahead of time that they are 
going to get in.
    Mr. Radanovich. Right, and that's--which, basically, 
outlines the need of a typical lodging industry, they work 
things far in advance, and so they need those guarantees, I 
think, going in.
    Ms. Urness. Right.
    Mr. Radanovich. Peggy, I did have a question, if you were 
given a choice of swinging the gate at 5,100 cars, or a day-use 
reservation system, what would you think would be better for 
the citizens of Oakhurst, and, of course, Goldfish Camp?
    Ms. Kukulus. That's really a tough one, because I was at a 
recent community meeting where probably two thirds of the folks 
in attendance said we'd rather you swing the gate. I can't 
personally say I believe that. I believe, as Gary said, that I 
think that we should look more for the long-term, but we aren't 
seeing the visitors, they just aren't here. I mean, the gates 
are open now and are counts, from what we can tell, our early 
counts are awfully down.
    Mr. Radanovich. Tiffany, as reference to that, too, it was 
mentioned by John Palmer, who I think is with the Office of 
Tourism, and he's a good person, knows the area well, had 
mentioned that the Office of Tourism was there ready to help 
once the Park got open in promoting, and I'm not referring 
particularly to that, but in the more effective communication 
of whatever restrictive use policy might be adopted by Yosemite 
National Park.
    I think sometimes in the past the wrong impression has been 
given to the visiting public that the park was closed, you 
know, periodically or sporadically any time during the year 
when, in fact, it was only--the gate was closed about nine 
times over the last couple years.
    Does the Office of Tourism stand ready to be able to help 
us develop whatever system that we develop, a better way to 
communicate it to people, so that they are actually discouraged 
from coming away during those--or, coming to the park during 
those peak periods, but are rather encouraged to be up there 
during the non-peak periods, like the middle of the week and 
off-season times?
    Ms. Urness. Certainly with regard to whatever plans are 
adopted, we will work with the visitor bureaus and with all 
affected entities, to get the word out through the media and 
through our overseas contacts; we have direct liaison with the 
Visit USA Committees in most of our major markets. Our media 
relations manager makes press visits, talking with media all 
over the country. So, in these ways we would support all the 
efforts to get the word out.
    Mr. Radanovich. Right, OK, thank you.
    Also, Peggy, I had a question, and that is, do you believe 
that there's the possibility of developing a system that might 
be a combination of bus use, gate closure and days reservation 
system, say, for example, requiring days reservations for 
Memorial weekend, July 4th weekend, and Labor Day weekend, 
perhaps, the parking subject to gate closures during the day, 
but then also moving forward toward the long-term solution, 
which in my view is a regional bus through YARTS system, and 
working at all three at the same time and thereby maximize the 
use of the motel industries and tourist industries outside the 
park?
    Ms. Kukulus. I think that's--it's an excellent solution, 
which is where we all should be focusing, on the transit 
systems into the park, and we are all working on those right 
now. One of our biggest concerns, and if we could get the 
additional funding, would be to look at how we would work with 
the staging areas, which are very much needed.
    I think the important thing we can say to all of our 
visitors is that no matter what, you can see Yosemite National 
Park, and I think we can live with that bus system.
    Mr. Radanovich. Right.
    And, I think if the lodging industry might be able to put 
together a bus system, their own systems, with the park 
agreeing to let the buses in, at least with those amount of 
numbers, then the lodging industry may be able to guarantee 
their visitors the opportunity to see the park.
    Ms. Kukulus. That's what we are working on right now.
    Mr. Radanovich. OK.
    Gary, I do have one more question, and that is, kind of off 
the wall but I'm going to ask you, Yellowstone manages 
campgrounds as well, and I know that Yosemite National Park and 
Yosemite Concession Services does not. If you could manage the 
existing campgrounds that are under about five feet of sand 
right now, would you go in and fix them up and have them 
operational this year?
    Mr. Fraker. Tomorrow.
    Mr. Radanovich. Is that right?
    Mr. Fraker. Yes.
    Mr. Radanovich. All right.
    Well, thank you very much, I appreciate this.
    On the next panel, I would like to invite up Patti Reilly, 
who is the Supervisor for Mariposa County from District 1, and 
also Jerry Fischer, who is President of Yosemite Motels.
    Welcome, Patti, you are welcome to start off.

    STATEMENT OF PATTI REILLY, SUPERVISOR, MARIPOSA COUNTY, 
                           DISTRICT 1

    Ms. Reilly. OK, thank you.
    I am Patti Reilly. I serve as the Supervisor of the First 
District of Mariposa County, which includes Yosemite Valley and 
El Portal where we are meeting today. I am Chair of the 
Mariposa County Local Transportation Commission and the 
Yosemite Area Regional Transportation Strategy group (YARTS). 
It's in my capacity as Chair of the YARTS group that I make my 
comments to you today.
    In the aftermath of the flood, transportation to and from 
Yosemite is a critical issue, both in the immediate future and 
in the long-term for the surrounding communities, the National 
Park and the traveling public.
    A few years ago, my predecessor on the Board of Supervisors 
spoke to another Federal committee stressing the importance of 
transit planning for the Yosemite area, advocating for an 
innovative regional approach and encouraging the funding of 
such an effort. I'm glad to report that today it's generally 
understood that the need for a transportation system does not 
end at the park boundaries. Collaboration with the National 
Park Service, gateway communities and the regional 
transportation planning agencies is essential to developing and 
implementing a transportation system which can manage the 
visitor travel demands within the region without adversely 
impacting the natural resources of the park. This approach was 
strongly endorsed by the transportation experts at last year's 
Yosemite Transportation Symposium.
    YARTS was formed to provide the structure for such 
collaborative efforts. The policy board includes elected 
officials from the counties surrounding the park and the 
Yosemite National Park Superintendent, and is supported by 
technical staff and citizen advi-

sors. Funding was appropriate by Congress to accomplish the 
first phase of this transportation planning effort.
    There are five points I'd like to make regarding the 
funding for park restoration and transportation:
    1. Funding must be provided for repairs and long-needed 
improvements to Arch Rock Road (Highway 140). All routes into 
the park must be a viable transportation corridor. Failure to 
fund the improvements will result in a significant barrier to 
implementing a near-term transportation plan.
    2. Superintendent Griffin has a vision of Yosemite emerging 
as an even better place in the aftermath of the January flood. 
Her approach is the right one ad deserves your support. 
Transportation and traffic management must be a focus of all 
park planning efforts. The transportation plan that provides 
attractive alternatives to the private automobile for both the 
visitor and employees, and improved visitor experience, an 
alternative to building parking infrastructure in Yosemite 
Valley, and economic viability in surrounding communities 
cannot be developed by the Park Service alone. We ask for the 
continued support of the YARTS process to ensure this 
coordination of effort.
    3. In announcing its plan to implement a vehicle 
reservation system, Park management has stated that the goal is 
to limit automobile entry as needed, but not public access to 
Yosemite. This can only be accomplished if a viable 
transportation system is available as an alternative. Short 
term or long-term, this can only be accomplished through 
coordination planning and adequate funding.
    We believe an expansion and enhancement of the transit 
system similar to the one currently being provided by Mariposa 
County can be the basis of a short-term solution.
    We suggest that the best type of transit system to 
implement near-term is one that consists of clean-fueled, 
rubber-tired, well appointed rolling stock utilizing the 
existing highway system:
    It has very little environmental impact, being able to rely 
to a large degree on existing resources and infrastructure 
including existing parking facilities in surrounding 
communities.
    It is relatively cheap in the near-term and can provide the 
foundation of a more advanced system in the future if that's 
what is desired.
    It can be designed to be equitable to all entrance 
communities and be adaptable to each community's needs as well 
as to the needs of Yosemite National Park.
    4. It must be understood that policy decisions, including 
those made in Washington, are pivotal to the success or failure 
of local transportation planning efforts. Decisions on access 
and entrance fees are prime examples. YARTS provides an 
existing proven institution to coordinate such policy decisions 
with the overall transportation planning efforts.
    5. Funding for transportation must be as integrated as the 
planning. We seem to be playing a new game with old rules. We 
know that the transportation plan which is most likely to 
accomplish the park's goals will extend beyond the park 
boundaries, but yet are told that funding cannot. We need a 
seamless, convenient, cost efficient system that will get 
people from where they are, home, hotel, satellite parking 
center, to where they want to be, Yosemite Na-

tional Park. This must be done in a manner that is respectful 
of the natural resources of the whole area. If funding dollars 
cannot cross jurisdictional lines, we will require unnecessary 
transfers and unnecessary dollars spent for transfer 
facilities. Quieter, clean-fueled vehicles are no less 
important outside the park boundary than in, and should be 
funded accordingly. In short, I urge you to help provide 
funding and a funding mechanism for a transportation system 
that best accomplishes the goals of Yosemite National Park, 
that is most cost efficient, and which strengthens the economic 
viability of the surrounding communities while they contribute 
to these important efforts.
    Thank you very much.
    Mr. Radanovich. Thank you, Patty.
    Gerry?

   STATEMENT OF GERALD D. FISCHER, PRESIDENT, YOSEMITE MOTELS

    Mr. Fischer. Thank you.
    Eight weeks ago today, this conference room was vacated by 
the Vietnam Veterans, who had been running the Evacuation 
Center for El Portal. I think it's interesting to see the 
progress that's been made in that length of time. It's only 
been 11 weeks since I went up to the great entrance here with 
my children and watched much of the property called Yosemite 
View Lodge being destroyed by the floods, and we're close to 
restoring it and anxious to be back in serving the public.
    All of this brings me to a topic of conversation, as 
opposed to day-use, but I'm going to combine the two if I may. 
It seems to me that when we talk about the day-use reservation 
system, we talk about it as if it's the foundation of a new 
Yosemite visitation program, and I think instead it's more the 
roof. The foundation of any successful system, I think, is 
going to require that we have a good, solid shuttle system 
within the park, and the ability to get there.
    To put the day-use system in front of that I think 
jeopardizes the concept of the day-use system, because we all 
sell a successful visit, we sell the idea that you have a 
satisfied guest, one who appreciates what he's just seen, and 
to go into the park and not have access to reasonable 
transportation destroys that notion. We must, first, I think, 
build that shuttle system.
    The conversation about day-use reservation has centered 
around the need to do it immediately, and I appreciate the need 
for some action quickly, but it seems to me that the 
conversation has been based on the build-out, requirements for 
a staging area. I know too much about staging areas recently, 
and I have an appreciation for how much room it takes to begin 
a new structure or to restore one, and it seems to me, if we 
look at those areas that are now accessible to us, the upper 
campground, the lower campground, camp six, the Ozone, the 
stables, Curry Down, and look at utilization of those areas as 
a staging area for the proposed construction, which is 
contemplated now over a period of three or four years, that we 
may, in fact, be able to provide the staging areas and keep the 
existing level of parking.
    And, during that time period, that we can work toward an 
effective day-use reservation system that will serve, 
ultimately, to tie into the system of shuttle service that we 
need and regional transportation.
    I would propose to you that our industry, and I'll speak 
for Mariposa County in terms of the fact that I serve as 
Chairman of the Lodging Group, would support the concept of a 
day-use reservation system if, in fact, we have a 
transportation system in place in the park, and the opportunity 
to take another one to it. That's critical, I think, to any 
conversation we would have.
    Lastly, I would like to say that I also want to recognize 
the efforts that the Park Service has put in place throughout 
this community and in working with us, I think we are 
challenged sometimes to recall the good things that happen, and 
we get way too focused on the problems that we have. The level 
of cooperation I saw in this building, in this community, 
directly after the floods, with B.J., with Hal, and, 
particularly, with Harry Steed and his staff in implementing 
what needed to happen, was very positive, and I could tell you 
honestly, the biggest single story that was missed, I think, in 
the flood was the level of cooperation that was shown day in 
and day out. We literally couldn't find anything to complain 
about, and I commend them for that, and I commend B.J., for the 
level of support that she's given us in trying to communicate. 
And, I think the road that she has taken us on, since she's 
been here, has been the right one. I think she's worked to 
bring new levels of communication to our outlying communities.
    The flood seems to have temporarily interrupted our ability 
to communicate on a regular basis. I appreciate that, I 
appreciate all that she's been put through, and I hope we can 
get back to the period of time when we can adequately discuss 
these things and get, if you will, onto the positive side of 
things again. I look forward to that day.
    [The statement of Mr. Fischer may be found at end of 
hearing.]
    Mr. Radanovich. Gerry, thank you very much.
    Patti, I've got a couple questions for you. I personally 
want to go on record as thinking that YARTS is the best thing 
since sliced bread. I think that that is going to be a 
remarkable concept for providing the longest solution to the 
longest problem in this area, and that has been traffic 
congestion in the Yosemite Valley.
    I understand, and after being briefed and such, you know, 
that it will be a while before the Valley is in a position to 
be able to dovetail into what might be developed by the 
Yosemite Regional Transportation Plan.
    I guess, one thing is, how fast can you plan for us? I 
mean, how quickly can this group get together and start putting 
something substantial, so that we can be a viable solution to 
this problem?
    Ms. Reilly. Well, not--we are not going----
    Mr. Radanovich. How much money do you need?
    Ms. Reilly. Currently, we have just started the first 
stage, first phase of evaluating different alternatives long-
term, and which would arrive at three to five different 
options, and we hope to have that done by September. That's, 
obviously, not fast enough. But, those are the more long-term.
    Mr. Radanovich. Right.
    Ms. Reilly. That takes us on the road there.
    But, and I must say, even in looking at long-term, I think 
that what we are looking at is a phased approach, where you can 
start off using a lot of your existing resources, looking at a 
flexible system that can be built upon in the long-term.
    There's many, many ideas for transportation plans for 
Yosemite, as you well know, but those are--many of them are 
costly and they will take longer to develop. So, if we can have 
a phased approach and build on those, that's, you know, 
probably where we want to go.
    But, in the meantime, I think we can probably take the 
approach that Mariposa County took as we started this process 
many years ago, in looking at both short-term and long term, 
and what Mariposa County did was put the Yosemite connection 
service in place, a transit service that to some degree allows 
people to get--they can travel by train even to Merced and then 
get a connection to Yosemite, it serves the employees and 
visitors from the hotels and so forth.
    I think short-term you could use that as a basis, and 
expand on that, expand that into the different communities.
    But, I think bottom line, short-term or long-term, you have 
to have--you have to coordinate those efforts. I mean, what we 
can't do is have someone standing at Buck Meadows Lodge waiting 
for the bus to Yosemite and be told, no, that's the Tuolumne 
County bus, you've got to wait for the Mariposa County bus.
    And also, what I think won't work is to have the park 
planning an internal transit system with the idea of, once we 
get it done we'll tell you guys what it is, and so you can 
connect up to it. We really all need to be at the table at the 
same time to do the most integrated system.
    But, we found, I think, all the communities have shown a 
commitment to getting a transit system on ground as quickly as 
possible, especially in reaction to the days reservation 
proposal, but we were somewhat stymied because there were too 
many missing links. You know, we need to be able to, just like 
we need to be able to tell people how a days reservation system 
would work, we need to tell them what would happen when they 
get on the bus, where are they going to go, how are they going 
to get to where they want to go, if they want to go to Glacier 
Point, how do they get there on our bus.
    And, if you separate the entities all doing their own 
things, you have constant missing links. It also takes money to 
do that.
    Mr. Radanovich. Right.
    Ms. Reilly. And, that's been a substantial problem.
    Mr. Radanovich. Do you agree that a well-thought-out, and a 
plan, a regional plan that was integrated with the needs and 
dovetailed with the plan inside the National Park Service would 
probably be the very best way of alleviating the traffic 
problem in Yosemite?
    Ms. Reilly. Yes, I believe it would be, and I think there's 
some argument about how much option you can give people, but I 
think ideally what the American people want are alternatives. 
And, if we can put a good, attractive transportation plan in 
place, that serves the needs of many of the visitors, and yet, 
allow some options for those that might not serve the purposes, 
I think that best serves the American public.
    Mr. Radanovich. Thank you.
    Right now, the Park Service is requesting approximately 
$21, perhaps, a total of $35 million, for the development of 
what could be either a parking structure in Yosemite Valley, 
or, which could very well be the case if there is not a 
regional transportation plan built and put into place, if it is 
it would serve as an inter-connector of two bus systems, one 
being the inter-park bus system, and the other being a regional 
park bus system. I would like to see it that way, but in order 
for that to happen, YARTS has to be something that's funded, we 
have to come up with a workable bus plan to allow the Park 
Service to encourage, eventually, all of the day-use traffic be 
directed to buses, so that there would be no person in the park 
enjoying the park for a day that didn't come there and leave on 
a bus.
    All of that depends on the development of a working transit 
system outside the park, and, I am fully convinced that it 
should be under the YARTS structure.
    Currently, in the emergency appropriation, all of that $21 
to $35 million is allocated for park interior transportation 
uses. Now, what we would like to do is to do two things. One is 
to make sure that in that study there was money appropriated in 
a particular fashion, also to speed the development of YARTS 
and the outside regional bus plan. If it's not specifically 
mentioned, what we would do is encourage incentives to the 
National Park Service and give B.J. the ability on money saved 
to be able to redirect that as well to regional park structure, 
so that this might be the Federal commitment to a problem that 
does solve the traffic problem with inside Yosemite National 
Park. Would you be supportive of either one of those 
initiatives, Patti?
    Ms. Reilly. Well, absolutely. I would be supportive of 
that.
    I would just like to add, though, just to reiterate the 
comments that I made, I think what needs to be funded is the 
overall plan that serves the needs of everyone, and I would 
caution again against the Park Service doing a plan, 
predetermining what the regional plan has to be. That may be 
the solution, but maybe by all working together we could find 
some alternatives for even a more integrated plan that might 
not necessarily require a Taft Toe parking area.
    Mr. Radanovich. Right. But, ideally, what you'd want to do 
is move both the park plan and the YARTS plan together 
incrementally, so that they both become a working unit at the 
end.
    Ms. Reilly. Yes, absolutely. I mean, I believe that's what 
has to happen, in order for the plan to be successful.
    Mr. Radanovich. Very good.
    OK, Gerry, now that we have the long-term problem solved, 
how do we solve the short-term problem of providing some kind 
of a system. I would imagine it would be a combination of, 
perhaps, gate closure, reservation, maybe not. I don't know, 
what are your thoughts, Gerry?
    Mr. Fischer. Well, Mariposa County made one proposal that 
was that, as the park reached, if you will, a saturation level, 
that guests would be notified that they could be diverted to a 
temporary parking area outside the park. Several were projected 
as potential, one was the idea that on 41 Badger Pass might be 
used as--the parking area there could be used as a temporary 
staging area, so cars would be diverted to that area, and then 
a shuttle would be put in place that would take them from that 
location to the Valley in time for the existing shuttle. 
Another proposal was to take the Rush Creek site, which is 
located just outside the park on Highway 120 and do the same 
thing. As they got to the gate, if the parking levels were too 
high, if the car count was too high, that they would be turned 
around, which is approximately one mile, and be diverted into a 
shuttle that would tie into the existing park system.
    One issue that came up very quickly was money. The other 
one was whether or not we could put the system in place with 
lease buses. The county contracts with VIA, Curtis Riggs is in 
the back of the room if you want to pick on him. Curtis said he 
thought it would be possible to lease enough buses to consider 
staffing those routes.
    The third highway, and the one, quite frankly, that we saw 
as the most challenging, was Highway 140--140 being challenging 
because it's more difficult to find a reasonable parking site 
that we can divert cars to, so we looked on 140 as utilizing 
existing hotel parking lots, like the one here at Cedar, and 
then tying back to a temporary location in Mariposa, which 
would increase the cost because it's a further commute.
    But, we do think that that would be possible, and that 
would allow us effectively to tell people they are assured 
access to the park. They may not be assured that they can drive 
into the park, but they would have assured access, and there 
would be no reason then to go to the day-use reservation 
system.
    If I could, let me just try and explain one of the 
challenges with the day-use reservation system, Bob Andrews has 
done a good job, I think, of determining that there are 
companies out there that can develop the hardware and the 
software to put a day-use system in place. But, what happens 
is, there are a great number of people that have to interpret 
it to the public. There are the reservations that would be 
under contract with whoever is running that system, there's the 
employees for the Park Service, there are the people that work 
for the concessionaire who field many calls, there's our staff, 
but then there's the travel professionals locally and statewide 
throughout the Nation and the world, and these people are all 
sold into existing systems.
    In my company, which does 700 rooms outside the park, is 
tied into more than 20 reservations systems worldwide. Comfort 
Inn and Best Western are two of those. The Sierra Services is a 
company that we deal with, so we are actually tied to the 
concessionaire. But, each one of those people feeds a certain 
level of information into that computer, which is referred back 
to their guests and their agents, and when you talk about 
creating a new system, such as is being discussed, and then 
disseminating all that information out to each of these people, 
having it fed into that system, and then having that further 
explained to the guests that they bring into the system, it's a 
very, very challenging prospect. We need, more than anything 
else, time if we are going to develop a system like that.
    Mr. Radanovich. Thank you, thank you very much, Gerry.
    Just one last question before I let you all go home, you 
are not necessarily opposed to a day-use reservation system, 
and I think I've heard you say that previously, but rather, as 
long as it fits in later, as long as it's not imposed too soon, 
as long as it's not imposed on this, and you'd be very open to 
work to develop, if the day-use system that we think might get 
imposed this summer were lifted, you'd be at the Park Service's 
beck and call to work up a system that both serves your needs 
and the lodging industry's needs, as well as meet the limited 
access to the park.
    Mr. Fischer. We would be happy to be at the park's doorstep 
tomorrow morning to work on that. I think what I have said 
pretty consistently is that in order for us to look at a day-
use reservation system, you have to have in place those key 
elements, and I think that the master plan, I think the park 
staff have felt all along that you have to have a better 
shuttle system than we have.
    One of the exciting things that's happened in the last five 
or six days has been that we see Senator Boxer, as well as your 
legislation, and President Clinton's comments, calling for 
additional funds to make that happen.
    If that's the case, and the shuttle system can be built, I 
think that the day-use system will work fine, given adequate 
time to prepare it and put it in place.
    Mr. Radanovich. Great. Thank you very much, Gerry. Thank 
you so much, Patti.
    Ms. Reilly. Thank you.
    Mr. Radanovich. Before we call our next panel up, I want to 
mention that the Highway Patrol is ready to take a convoy right 
now for those people who need to get back up there, so you are 
all welcome to stay, but you may be spending the night.
    Our next panel is Linda Wallace, who is the Chairwoman of 
the Yosemite Committee of the Sierra Club; Brian Huse, Pacific 
Region Director of the National Park and Conservation 
Association; and Garret De Bell, Executive Director of the 
Yosemite Guardian.
    OK, we're going to need to get some order here. Brian, 
welcome, Garrett, thank you for coming, and also, Linda, thank 
you for being here. Brian, if you'd like to start off, please.

  STATEMENT OF BRIAN HUSE, PACIFIC REGION DIRECTOR, NATIONAL 
               PARKS AND CONSERVATION ASSOCIATION

    Mr. Huse. Thank you, Congressman.
    My name is Brian Huse. I'm the Pacific Region Director for 
the National Parks and Conservation Association. NPCA is 
America's only private, non-profit citizens group dedicated 
solely to protecting and preserving and enhancing the National 
Park System. Today I'm speaking not only on behalf of NPCA, but 
the Wilderness Society and Yosemite Restoration Trust. 
Together, our organizations have been working continuously to 
protect Yosemite National Park, and have over 810,000 members 
nationwide.
    To be sure, the flood event took a significant toll on the 
developed areas in Yosemite Valley and seriously disrupted 
people's lives. In addition, the resulting closure has impacted 
local economies, stressing many small businesses to the 
breaking point. We've heard in great detail today the 
tremendous devastation that has re-

sulted from the flood, as well as the tremendous opportunities 
that are now awaiting us to restore the park and help bring 
better partnerships between the Park Service and the local 
communities.
    I think a lot of things have been said today that point to 
tremendous opportunities to build these relationships between 
the National Park Service and the communities, and I don't want 
to repeat things that have already been said, but I would like 
to point you, sir, to a few opportunities that might have been 
missed. Our written testimony goes into them in greater detail, 
but starting with infrastructure in the developed areas of the 
park.
    I just want to reiterate the need to use the planning 
processes that are already in place. The GMP developed in 1980 
has set forth an appropriate vision for Yosemite National Park. 
I think the Valley Implementation Plan and the housing plans 
that are now in production can help us fulfill that vision, if 
we use the money wisely to allow the Park Service to finish 
this process.
    If we were to simply determine what gets built and what 
doesn't through earmarking of these funds, we may end up ten 
years down the road having to do a lot more redevelopment at 
significantly greater expense to the Federal Government and the 
taxpayer.
    In the area of transportation, I think we are unanimous in 
our desire for a regional transportation system. I think many 
people have spoken very eloquently today for using YARTS as the 
vehicle to develop this, and I think the funds that you, sir, 
Senator Boxer, and the President have afforded for 
transportation can help make that a reality.
    I would also hope that along with any new ideas, such as 
your desire to, perhaps, use extra money or leftover money to 
go in your regional plan, that we leverage these Federal 
dollars with ISTEA money and use those to also move this 
process more quickly along, and we may be able to resolve some 
of the issues with the day-use reservation system that way as 
well.
    With respect to employee housing, I think another economic 
opportunity exists here in the communities. Right now, the 
public is reviewing a draft amendment to Yosemite Park's 
Employee Housing Plan. It calls for doing some significant 
development here in El Portal on both sides of the river, but 
last year, as Congress was closing, in the 1996 Omnibus 
National Parks and Public Lands Management Act, some new 
authorities were provided to the Park Service to work with the 
local communities outside of parks to develop and lease housing 
in the private sector. I think this would be a tremendous boom 
to these economies which have been hit so hard in the past few 
years with closures and disasters, and I urge the committee to 
direct the Park Service to using these new authorities under 
Section 814, I believe, of the Omnibus Parks Bill, to further 
along the need to remove the housing from Yosemite Valley and 
remove some of these jobs.
    It would be inappropriate to conclude without talking about 
the Organic Act, because as important as it is to use this as a 
tool to help restore the park and to improve the community's 
relationships with the park, we must all remember the Organic 
Act is the mandate the National Park Service must uphold to 
preserve the resources unimpaired for, not only ourselves, but 
for future generations. And, we urge this process to allow the 
Park Service to use our parks, not as economic engines, but as 
the repositories of our national and cultural heritage.
    [The statement of Mr. Huse may be found at end of hearing.]
    Mr. Radanovich. Great, thank you very much.
    OK, Garrett.

        STATEMENT OF GARRETT DE BELL, YOSEMITE GUARDIAN

    Mr. De Bell. Hi. Do I get the green light?
    Mr. Radanovich. Don't start until it's green. I'm sorry, go 
ahead.
    Mr. De Bell. Thank you very much for the opportunity to 
participate in this oversight hearing on the important topic of 
the restoration of Yosemite.
    My name is Garrett De Bell, and I am Executive of the 
Yosemite Guardian, a project of Earth Island Institute.
    We work to ensure the continued existence of Yosemite's 
magnificent forests and meadows with their biodiversity intact. 
The environmental issues that concern us most include the need 
for an adequate control burn program, and we're very happy to 
see a burn going on as we speak now, to protect and restore the 
mid-elevation forests and the need for a research and 
restoration effort sufficient to understand and reverse the 
alarming disappearance of frogs from the wilderness of 
Yosemite.
    We bring up these issues today in the context that these 
important needs continue to receive inadequate attention, while 
issues in the developed area of Yosemite Valley and its fabled 
gridlock receive the lion's share of attention and money.
    We are thrilled with your efforts and Senator Boxer's 
efforts to introduce bills for more funding. We fully support 
that. We fully support the idea of doing more to implement the 
General Management Plan. We are concerned that this part of the 
General Management Plan, the Natural Resources Plan, has not 
gotten as much attention as the part dealing with facilities, 
that's our main mission, or one of our main missions, as we 
work on Yosemite issues.
    Secondly, we vigorously support the right of access to the 
park by visitors without undue restrictions, and in terms of 
process we advocate a completely open decisionmaking process 
which allows all people, and, particularly, all stakeholders, a 
voice in the decisions that affect them.
    We are very heartened by this hearing today, as part of 
that whole process, and we are working to expedite that process 
and maintaining a web site to make it easier for people to 
participate in this process. We've had a very heartening 
response from people throughout, particularly, the immediate 
Yosemite region, from Oakhurst to Sonora.
    We applaud, as I stated, your efforts to get more money for 
Yosemite. $200 million is a lot of money, even more could be 
spent, if you support spending more, to do all the things that 
Yosemite needs to bring it to the excellence it should have in 
infrastructure, facilities, guest services and, most 
importantly, environmental protection. But it is important to 
us that this money be spent wisely, and it's important that any 
restrictive measures, such as the day-use reservation system, 
that restrict visitation and may harm the surrounding 
communities are not implemented casually, and, again, have the 
full input at all stages of the planning process of the 
affected stakeholders.
    We are alarmed with the rapid rush by the Park Service to 
implement a day use reservations system without public hearings 
or input as well as the rush to go forward with some new 
changes that aren't proposed in the GMP and are part or part of 
the new housing plan and Valley Implementation Plan, which have 
just been spoken of.
    While the GMP authorizes many of these actions, the ones 
that tread new ground concern us. These include the closing of 
the Rivers Campground, which is not called for in the 1980 GMP, 
and the proposed Taft Toe parking area and the related 
elimination of the excellent one way loop road that was one of 
the major accomplishments of the recent past. But the push for 
reservations seems particularly misplaced. We realize these 
projects are well intended, we fully recognize the good 
intentions of the Park Service, and they want to help reduce 
Yosemite's automobile congestion. We know they are well-
intentioned, but we are afraid some of these things will be 
counterproductive.
    The hasty imposition of a reservation system will certainly 
harm the surrounding communities, as we heard very much already 
today. These communities provide accommodations and other 
services outside the boundaries, as called for specifically by 
the NPS and its visionary General Management Plan. These 
communities should be viewed as partners by the Park and 
included in the planning. It is necessary to remind ourselves 
that the GMP clearly states on page ten the goal of 
``encouragement of private enterprise outside the Park'' as a 
key element in providing accommodations outside, rather than 
inside, Yosemite's boundaries.
    We would like to also stress other alternatives. We favor 
alternative views, voluntary ways of reducing overcrowding of 
vehicles in the park. Some of the alternatives we support can 
be put into place without high cost and without the 
regimentation of a proposed reservation system, and some of the 
proposed changes can go along with the Taft Toe parking lot.
    A real and very important long-term need is to reduce the 
number of cars driving to Yosemite, we think this should be 
done by providing quality and voluntary alternatives that 
people will use, similar to the successful Valley Shuttles and 
the Badger Shuttle, which are funded by add-ons to various fees 
such as lift tickets, these could let many visitors leave their 
cars in Mariposa, Fish Camp, Buck Meadows or other logical 
points on the three highways, by taking the shuttle instead of 
the cars.
    We've included other measures in our written comments, and 
we'll leave those in the interest of time.
    We concentrate particularly on the transportation issues in 
the Park, because they divert attention from the ecological 
threats which we think need more attention if Yosemite is ever 
to be truly protected. If the transportation issues could be 
dealt with in the most common sense and cost effective manner 
then there would be money left over to restore Yosemite's 
forests and protect its wildlife. We look forward to 
participating in this process. Thank you.
    [The statement of Mr. De Bell may be found at end of 
hearing.]
    Mr. Radanovich. Thank you, Garrett.
    Hi, Linda.

 STATEMENT OF LINDA WALLACE, CHAIR, YOSEMITE COMMITTEE OF THE 
                          SIERRA CLUB

    Ms. Wallace. Thank you, Congressman, for the opportunity to 
speak here today.
    Mr. Radanovich. Linda, just one second, though. Can 
everybody hear Linda? OK, we need to adjust that mic, too.
    Ms. Wallace. Thank you, Congressman, for the opportunity to 
speak here today.
    I'm Linda Wallace, I chair the Yosemite Committee of the 
Sierra Club, which is a volunteer committee.
    I'd like to begin by echoing the support that Mr. Fischer 
expressed for the Superintendent and her staff. I'd like to 
extend that also to Mr. Fraker and his staff. Members of my 
committee have been particularly impressed with how rapidly the 
Park Service and the concessionaire have worked to get the park 
open again, to assess the damage and let the public know much 
of what had happened. So, we appreciate all their good work to 
date.
    The flood along the Merced River in January of `97 served 
as a wake-up call for all those who care about Yosemite 
National Park. Since the park's visionary General Management 
Plan was adopted in 1980, we have let 17 years slip by, doing 
very little to solve the problems of overdevelopment and 
traffic congestion it addresses.
    Yosemite is now at a crossroads. Because of the river's 
decisive action, Congress, the Administration and the National 
Park Service can now act to turn this disaster into an 
opportunity. We can make the visitor's experience of Yosemite a 
better one than what we've experience during this decade.
    The legislation proposed by Congressmen Radanovich and 
Doolittle, Senator Boxer and the Administration's request for 
supplemental funding demonstrate that there is bipartisan 
support for putting things right in Yosemite. This funding was 
originally called for when the GMP was adopted back in 1980 and 
that hasn't occurred. The flood has now provided us with a 
physical opportunity; the legislation provides the political 
opportunity to make now the right time to implement the GMP.
    It will not be enough, and not fair to the American public 
and our international visitors, if we simply repair and replace 
the development that was in the flood plain. This would be a 
poor use of our tax dollars. We need to invest for the long-
term with the appropriation that comes to Yosemite. This must 
be about protecting the natural resource and providing a better 
experience of this natural setting for the American public to 
whom this park belongs.
    Because it is important to open all of the park to the 
public as soon as possible, the needs assessment and cost 
estimates are being developed very rapidly. While we 
enthusiastically support the proposed funding measures, we also 
believe it is necessary to give the Park Service flexibility to 
spend the funds where they are really needed when the flood-
related damage is better known. We recommend that the 
legislation not mandate or prohibit any specific details about 
Yosemite restoration; rather, the details of implementation be 
developed through a collaborative planning process involving 
public input.
    It is very important for the Park Service to be open to 
public input about the planning and implementation of changes. 
At the same time, let us not become mired in arguments about 
specific details of the restoration and lose this long overdue 
opportunity. What I've heard today suggests that that's not 
what's happening. There's a lot of common ground among us all, 
and it's been gratifying to hear that expressed today. Let us 
keep our eyes on the objective of protecting and enhancing this 
national resource. At the same time, we think that the 
economies of the gateway communities will also benefit and 
thrive by providing more visitor services than they currently 
do.
    As a component of the legislation Sierra Club urges 
Congress to include funding for resource management and 
interpretation.
    Interpretation is an essential component of the quality of 
the visitor's experience.
    It has become increasingly obvious in the 90's that the 
answers to managing the crowding and congestion of the park 
revolve around how we manage private vehicles. Sierra Club 
advocates a regional transit system which includes a shuttle 
bus system from gateway communities and a day-use reservation 
system for vehicles as options to solve the congestion problem.
    Congestion has grown steadily in Yosemite ever since the 
GMP was adopted in 1980. In 1996, in spite of the Park closure 
during the government shutdown, overall visitation was still up 
from '95. Every indication is that the numbers will climb as 
America's national parks continue to be a prime destination of 
people from around the world.
    Private vehicles actually compete with people for space in 
the Valley. If people use mass transit instead of private 
vehicles to enter the Valley, then they can enjoy Yosemite 
without congesting it.
    The YARTS group, a collaborative effort of local 
governments, is already in place to administer a regional 
transit system. But they will have to move quickly and 
decisively now to capitalize on the opportunity afforded them 
in the wake of the flood.
    Although some suggest that a day-use reservation system for 
vehicles will scare people away, Sierra Club believes such a 
system would provide insurance that visitors will not be turned 
away at the gate, or have to sit for hours waiting in line for 
parking paces to be freed up, losing hours they could have 
spent enjoying the park.
    In the long-term, a day-use reservation system has the 
potential to be better for visitors and to provide for a more 
stable economy in the neighboring communities. People and their 
dollars will be brought to the gateway communities. A day-use 
reservation system for private vehicles can also help pave the 
way for a comprehensive mass transit and shuttle system between 
Merced, Fresno, the gateway communities, and Yosemite.
    In conclusion, Sierra Club trusts that the 105th Congress 
will heed the warning sounded by the flood, and provide the 
full appropriation for the crown jewel of the National Park 
System. We urge flexibility in the use of these funds, an open 
public planning process, funds for resource management and 
interpretation, a day-use vehicle reservation system, and the 
planning and implementation of a regional transit system.
    Overdevelopment in Yosemite, increasing congestion and 
crowding need to be addressed now. We must take advantage of 
this window of opportunity afforded by the flood.
    Thank you.
    [The statement of Ms. Wallace may be found at end of 
hearing.]
    Mr. Radanovich. Thank you very much.
    I have one question to ask all of your, basically, the same 
question, before I ask B.J. back to provide a few brief remarks 
before we close, and that is, it's very hard to imagine a 
multi-level parking structure in Yosemite Valley. It just 
doesn't seem to fit. But, would you support an intermodal 
facility that was actually connected to a regional well-
designed and laid out regional transportation facility that 
received buses from outside the area and connected with the 
interior Park transportation facility? Would you support 
something like that, Brian?
    Mr. Huse. Since we are already on record as supporting an 
intermodal transit transfer station, if you will, yes, we 
would, so long as that was on the smallest scale possible, and 
placed in an appropriate place within the outer-most portion of 
the Valley.
    Mr. Radanovich. Great, thanks.
    Garrett?
    Mr. De Bell. I agree generally with Brian. The only thing I 
would say is, I'd maintain an open mind on these things, but 
I'd want to see the whole system.
    What worries me is piecemeal advocacy of little parts and 
pieces, you have to see the whole system to know if you support 
it or don't support it.
    Mr. Radanovich. OK.
    Mr. De Bell. But, I would say an open-minded approach, 
again, full public participation.
    Mr. Radanovich. Very good, thank you.
    And, Linda?
    Ms. Wallace. Sierra Club also supports the idea of a 
transfer facility. I think the question is how it's done and 
where it's placed.
    Mr. Radanovich. Where it's located, all right.
    Thank you all very, very much for coming.
    B.J., I wanted to invite you back up, if you wanted to make 
a few remarks before we close.
    Ms. Griffin. Thank you, Mr. Congressman.
    There were a couple things mentioned that probably bear a 
little clearing up. The vehicle reservation system, it seemed 
to me that some of the testimony indicated that buses would be 
somehow restricted or subjected to reservations. That is not 
our thought.
    In considering the system, we have wanted to encourage the 
use of bus transportation in the Park as much as possible. So, 
under the system we have considered, the people riding buses, 
whether tour buses or transit buses, would not be subjected to 
a reservation.
    We have also requested consideration from Washington for 
fee incentives that would allow people riding buses to be 
encouraged to do so.
    The other thing, I heard a lot of reference to Taft Toe 
parking lot today, and I just wanted to reiterate one more time 
that the Valley Implementation Plan that will go out for full 
public review this summer will talk about options for 
transportation solutions.
    There is nothing in the requested money before you that 
predetermines any of those decisions. That will be subject to 
the full planning process.
    I appreciate the hearing today. I am very interested in the 
comments, and I want to thank Tuolumne, Madera and Mariposa 
Counties for their help throughout this very special challenge.
    Mr. Radanovich. All right, thank you very much, B.J., and, 
again, I appreciate everybody from the community for coming 
out, and the hearing is closed.
    Thank you very much.
    [Whereupon, at 2:38 p.m., the Subcommittee was adjourned; 
and the following was submitted for the record:]

     Statement by Senator Dick Monteith, 12th District, California

    First I would like to thank all of the Members of Congress 
who are members of the Subcommittee on National Parks & Public 
Lands for allowing me to testify today on behalf of my 
constituents.
    Yosemite National Park is an important geographic area in 
the 12th Senate District of California which I represent. All 
of the access points leading into Yosemite are in the 12th 
Senate District except for the Eastern entrance in Lee Vining. 
For that reason, I would like to comment on some of the issues 
my constituents and I feel are important for the future of 
Yosemite and its surrounding communities.
    The first issue is that of the proposed ``day-use 
reservation system.'' I feel that there is a need for more 
community input into this proposal. The ``day-use reservation 
system'' could possibly affect our local communities that 
depend on Yosemite visitors for their economic wellbeing. I am 
strongly opposed to any proposals to implement the day-use 
reservation system program this year, and likewise, I strongly 
urge the National Park Service and Congress to include the 
local communities in any future plans of implementing any 
programs such as this.
    The second issue I am interested in is how the money to 
restore Yosemite National Park is going to be appropriated. 
These decisions must be carefully thought out. Number one, we 
must restore the natural beauty of Yosemite. However, there are 
other important decisions to consider. We must make certain 
that the appropriation of these funds will have long-term 
benefits for Yosemite as well as the communities that surround 
it. Equally important is to make certain the funds are not used 
as a vehicle to deny public access to Yosemite by the tax-
payers of our nation. Again, we must consider the economic 
ramifications that are possible if the funding is not 
appropriated in a rational manner.
    And finally, I would like to comment on the ``traffic 
plan.'' Again, this plan needs community input as it could have 
a direct economic impact on our local communities. There needs 
to be a joint effort between legislators and communities to be 
certain the economic ramifications are adequately addressed. I 
have spoken with officials from all the communities in the 12th 
Senate District that surround Yosemite, and they have all 
expressed their grave concern of their economic vitality and 
future. Additionally, I have received letters from all the 
Chambers of Commerce and Tourism Bureaus in these ``Gateway 
Communities''--including large communities--and they are all 
concerned that due to the economic and tourism depression 
prevalent in these areas, there is a need for a program of 
``Total Access'' from all areas surrounding Yosemite.
    Again, I would like to thank the Subcommittee on National 
Parks & Public Lands for giving me the opportunity to testify 
and express the views of the 12th Senate District, and the need 
for our legislators to make every effort and insure that 
taxpayer funds are appropriately spent.

                                ------                                


    Testimony of Garry Parker, Member, Mariposa Board of Supervisors

    Mr. Chairman and Honorable Members of the Oversight 
Committee.
    Welcome to Mariposa County, home of Yosemite National Park, 
and thank you for this time.
    My name is Garry Parker, and I am a Mariposa County 
Supervisor. I represent District 4 and the majority of the town 
of Mariposa.
    The floods of 1997 have been devastating to Mariposa County 
as well as Yosemite National Park, particularly the economy of 
our County and its residents. For your information, in Mariposa 
County, on an annual basis, the transient occupancy tax derived 
from tourists staying in hotels, motels and bed and breakfasts 
represent fourteen percent of the County's total budget, and a 
whopping fifty percent of the County's discretionary income. It 
has been estimated that the losses to our local business 
community as a result of the closure of Yosemite National Park, 
including restrictions caused by day use reservations, will be 
as high as sixty-three million dollars. In a county with a 
population of sixteen thousand, those figures are staggering. 
These are not just cold statistics but represent real problems 
for real people in Mariposa County and the surrounding 
communities. To put this on a personal note, I will give the 
Committee an example of the devastating economic effect, the 
flooding and the Park officials' reaction to the flooding has 
caused residents of Mariposa County: The local Chevron service 
station, located in downtown Mariposa, is owned and operated by 
the LeDuc Family. Before the closure of Highway 140 into the 
Park, the LeDuc's employed ten people and the station was open 
twenty-four hours a day. The business now operates on a reduced 
hourly schedule and employs only five people, all family 
members. This is typical of what is happening to our businesses 
throughout the County.
    There are a number of issues being proposed by the Park 
Service that could potentially be as devastating as the floods 
themselves to the economic well-being of the surrounding 
counties. The primary issues which are creating a tremendous 
adverse affect on the surrounding communities are: 1) The 
Park's official announcement of a day use reservation system to 
be effective in May; although it is clear that there is no 
organized plan for a day use reservation system, and there was 
no plan of any nature for a day use reservation system at the 
time the formal announcement was made; and 2) The proposed 
restriction on use of Highway 140 by the traveling public both 
from now until Memorial Day, and from Labor Day for the next 
one year or longer. Those two issues will be more fully 
discussed below.
    Park Service officials have stated that surrounding 
communities should not be dependent upon Yosemite Valley for 
their economic survival. The Park Service has consistently over 
the years refused to acknowledge that the tremendous economic 
investments made by business persons in the surrounding 
communities is every bit as important to the survival of the 
Park as the Park's presence is to the survival of the 
surrounding business communities. It appears to me to be 
elementary that, without the substantial tourist-oriented 
investments in the surrounding communities, there would be 
overwhelming pressure to change the very nature and use of 
Yosemite National Park, to better cater to the visitor within 
the Park boundaries. In truth and in fact, the surrounding 
communities are partners with the Federal Government relative 
to Yosemite National Park. It is time that Park officials 
recognize this fact and act upon it. It is time that Park 
officials take into consideration the impacts of their 
decisions which directly affect those surrounding communities. 
It is time for the Park service to treat the surrounding 
communities as full partners and allow its partners full and 
complete participation in decision making, it is time to stop 
making decisions without appropriate input. I believe that the 
Federal Government does have the responsibility, not only to 
Mariposa, Madera, Tuolumne and Mono Counties, but to the State 
of California itself, to ensure that Park officials do not make 
arbitrary decisions which have had no public input and which 
adversely affect citizens of the surrounding communities and 
citizens of the State of California.
    Regarding the proposed day use reservation system which is 
being highly publicized, there are at the present time no 
definitive answers to the question of implementation. Even as 
we sit here today, I do not believe that Park officials have 
any fundamental understanding of the tremendous adverse 
economic effect their formal statement that a day use 
reservation system will be implemented in May has had upon the 
surrounding communities of Yosemite National Park. To have made 
such a formal representation to the general public without a 
plan of some kind to go along with the announcement was 
unfortunate. As I am sure this Committee understands, a day use 
reservation system which by necessity, will involve well over 
four million visitors per year, will also have to handle many 
times more than four million inquiries, is a system that 
cannot, and should not be designed by Park officials behind 
closed doors. A day use reservation system that works for 
Yosemite National Park, the surrounding communities, the State 
of California, and the citizens of the United States of America 
must be a well planned, well reasoned system with much public 
input. Lodging reservations, which is addressed by another 
speaker, Mr. Jerry Fischer, is a complex and finely tuned 
business tactic and art. To formally announce that a day use 
reservation system will be implemented in May without any 
information or plan to go along with that announcement has had, 
and will continue to have incredible adverse economic effects 
to all of the surrounding communities, lodging industry and 
other tourism industries. The manner in which Park officials 
handled, and continue to handle, the proposed day use 
reservation system makes it impossible for anyone in the 
lodging industry to provide accommodations to the visitor 
because they are unable to assure them access to the Park. The 
Mariposa County Board of Supervisors was prepared to institute 
a public transportation system to guarantee lodging industry 
clientele entry into the Park. However, because the Park 
officials have absolutely no idea, or if they do they are not 
sharing it with Mariposa County, how the day use system is 
proposed to be implemented, it is absolutely impossible for 
Mariposa County or any other surrounding community or county to 
prepare a workable public transit system under these 
circumstances.
    On March 11, 1997, the Mariposa County Board of Supervisors 
unanimously adopted a resolution taking the following position; 
1) opposing the fast track implementation of a day use 
reservation system in the immediate future, and offering to 
work with the Park Service for future implementation so that it 
can be a viable project; 2) supporting an incentive for public 
transit such as a $2 entrance fee per person riding a public 
transit vehicle; 3) Highway 140 should be open to all traffic 
by use of a private car system every day of the week for a two 
hour period in the morning and in the evening, with a 
suggestion of keeping the highway open until 8:00 A.M., 
commencing March 15, 1997, and continuing until Highway 140 is 
open to unrestricted traffic; 4) a commitment that the County 
will continue to support public transit alternatives and 
lobbying for long range funding for a transit and 
transportation system, whether it be in support of YARTS or any 
other mechanism; 5) requesting that a meeting be scheduled with 
the Park Service officials that have authority to make 
decisions and provide answers with County representatives, our 
Congressmen, Senators Boxer, and or Feinstein or their 
representatives, our State legislative delegation, and with 
representatives from the lodging industry, Yosemite Concession 
Services, and VIA Adventures. A copy of that Board action is 
attached hereto marked Exhibit ``A'' and by this reference 
incorporated herein. I believe that the action taken by the 
Board of Supervisors on March 11, 1997, shows the total 
commitment of Mariposa County to work diligently with the Park 
Service to resolve these problems in the best interest of not 
only Yosemite National Park, but of the surrounding communities 
themselves.
    Relative to Highway 140 closure, we now hear that Highway 
140 is scheduled to open to unrestricted traffic on Memorial 
Day of this year, and that the Highway will then be closed 
again in September. Just as Mariposa is struggling to recover, 
the gates will close again. We've also heard that Highway 140 
may remain closed with restricted access for up to 18 months. 
This would further devastate the local economy. We protest that 
these decisions have not occurred during an open public 
process. While we fully support the repair and rehabilitation 
of areas within the Park boundaries, we believe this can occur 
only through a reasonable and joint effort of all affected 
parties. We must take into consideration the impact every 
decision we make has on our citizens.
    In conclusion, I would like to say to the Committee that 
what Mariposa County in particular, and the surrounding 
communities in general, is asking does not seem to me to be in 
any way unreasonable. We are simply asking that all of the 
affected parties be consulted and be treated as equal partners 
in the decision making process that directly effects those 
parties. Additionally, the public itself should have full input 
relative to major decisions such as a day use reservation 
system. We ask that you assist us in being treated as full 
partners, the status which we hold, with the Park Service 
relative to the decision making process which directly affects 
us and other surrounding communities. No agency or department 
should be allowed to become an entity onto itself, we must all 
work together to achieve a united goal.
    Thank you Mr. Chairman for this opportunity to address our 
concerns.

                                ------                                


 Statement of Gerald Fischer, Chief Executive Officer, Yosemite Motels

    Thank you for allowing me to participate in this oversight 
hearing on Yosemite National Park.
    My name is Gerald Fischer. Twenty years ago my family and I 
purchased a 12 unit motel in El Portal called the Rapids. 
Little did I know that our future would become so entwined with 
Yosemite National Park. Over the years, we would purchase 
existing motels and develop new ones to now operate over 700 
rooms in the gateway communities surrounding Yosemite National 
Park. Last year we had over 310,000 guests enjoy Yosemite using 
our properties as a base. I feel a need to represent those 
public interests as well as my own. Certainly, any issue that 
involves the Park affects the livelihood of my family, our over 
150 employees and our vendors and lenders.
    During this 20 year period, we have faced many challenges, 
some man-made and some at the hands of nature.
    The recent floods provide such an example. Damage done at 
one of our properties, Yosemite View Lodge, is estimated to 
exceed $2 million. In a matter of hours, we watched the water 
rise and remove concrete decks estimated to weigh more than 
20,000 lbs. tossing them like pillows in the air. A concrete 
spa large enough for 8 persons was lifted as a single unit and 
moved nearly 50 feet away. These most visible signs of damage 
are also the most easily corrected. By the end of this month, 
we shall have either removed or repaired all damaged buildings. 
A new restaurant is currently under construction to replace the 
one destroyed by the flood.
    The more challenging task is to recover from the larger 
issue of Park wide damages, its closure and projected impacts 
of continuing construction.
    Prior to addressing these issues, I would like to state, as 
I have many times before, that the performance of the combined 
local, state and federal agencies during the emergency was 
extremely impressive. I have never seen a better example of 
cooperation in action, and I have no doubt that significant 
benefits came to the local communities as a result. B.J. 
Griffin, Hal Grovert, and their staff, under the immediate 
supervision of Harry Steed, were wonderful. I believe the El 
Portal community in particular benefited from close cooperation 
during this crisis.
    For me, the most significant story of the 2 or 3 week 
period after the initial incident may be in what did not 
happen. As a company, we did not have a single complaint to 
voice about the attitude, performance or priorities of those on 
the ground in El Portal. From flagman and law enforcement 
officers to social services, Park Service and FEMA wonderful 
things happened. Those local state and federal agencies and 
their staff deserve great praise for their efforts, 
particularly in those first few difficult days.
    More significant obstacles developed for us and our 
industry as the Park worked towards a possible solution for the 
challenges they faced both in the valley and on issues of 
access. The most significant challenge came with the news in 
early February that the Park was planning to implement a Day 
Use Reservation System. While I accept the Park's explanation 
that this announcement was inadvertent, it was the first of a 
series of statements that has caused our industry great 
anxiety.
    Over the last 4 or 5 weeks, significant numbers of 
cancellations have come in. Call volume is down nearly 30% and 
the calls we do receive are answered inadequately as we don't 
have reasonable information. Obviously, we searched for 
answers.
    One of our first concerns was how the establishment of 
necessity was reached. As explained in several area meetings, a 
shortage of parking areas would require such an action. This 
parking area shortage was reported as two fold. First, it might 
be needed as a site for alternative housing for concessionaire 
employees, and second, as a staging area for construction. 
Several alternative areas were suggested for potential housing 
and staging areas that would not require loss of parking or 
alternatively could provide replacement parking. These areas 
included camp six, the area known as the O-Zone, the upper and 
lower campground areas, the stable area, which is closed for 
the current season and the Badger Pass parking area. We were 
told that no budget existed to allow for an evaluation of these 
areas or of the total staging area that would be needed. It 
appears then, that a worst case scenario was developed in 
anticipation of maximum construction needs, and this number has 
driven the issue of Day Use Reservation. I would suggest that 
funding be allocated to identify the staging capacity of each 
of these sites and any others that may be identified and as 
well the staging area needs, for each proposed construction 
project. If, as has been stated, these projects are to be 
developed over a 3 or 4 year time span, it seems likely that 
the potential need for staging areas have been overstated.
    If in fact these alternative staging areas are more than 
adequate, the cost and confusion associated with a temporary 
DURS can be averted. This study deserves serious consideration 
and is one that can be developed quickly and at a reasonable 
cost.
    The Day Use Reservation System that is being referenced 
publicly exists only as a vague concept for us. I am not aware 
of any document that has been made available for review either 
to the press, the public, or Congress for that matter that 
allows for reasonable comment. At the public meetings I have 
attended, there have been numerous and sometimes conflicting 
statements from National Park Service. Our industry has offered 
up many comments of their own. Absent a specific proposal this 
is an inadequate process. We are reduced to commenting in 
general terms about something that has its power in the 
specifics.
    B.J. Griffin was quoted as saying that one reason she can't 
answer major questions about how such a plan would work is that 
as of Friday, March 14th, she still hadn't seen the proposals 
from the private consultant under contract to design the short 
term system. In this respect, we share her problem. We are 
unable to answer to our customers as to what impacts will 
result. The list of unanswered questions runs the gamut from 
how will handicapped visitors be allowed entry to what can be 
done about reservations already booked. We have been asked if 
the 7 day ticket allows for 7 days entry, or if you now need 7 
day use passes. Will those scheduled to enter on one highway 
and exit on another be allowed to do so? Will translators be 
available, at least by phone, to deal with those who cannot 
understand the new policies or need assistance in booking.
    Quite simply, no one can say. As a result, we spend a great 
deal of time on the phones without success trying to interpret 
a policy, a direction or a system that is unclear. This damages 
our credibility as well as that of the National Park Service.
    Supporters argue that nearly 8 out of 10 Americans support 
a Day Use System. I will take a leap of faith and suggest to 
you this is based on the premise that such a system will work. 
I am unaware of any place in the world where such a proposal 
has been implemented within similar time frames. Aside from the 
relatively simple issues of software and hardware, on-site 
locations need to be generated in local communities with hours 
of operation established, signage and staffing arranged. Do you 
expect all this to happen and to be producing a quality product 
within the next 30 days? Nothing in my life experience supports 
such optimism.
    If such a plan is to succeed and be accepted by the 
Yosemite visitor, it must be effective from day one. I believe 
the issues I raised and many others create too great a risk. We 
must face the fact that many travel professionals and tourists 
will evaluate not only Yosemite but the entire National Park 
Service by the effectiveness of the program. The value of this 
system should not be judged only by its ability to limit guest 
visitation. I am confident it will be successful in that 
regard. We should look to this as a demonstration project for 
how we might choose to deal with autos in the future.
    The Park Service will be able to establish clear policies 
and procedures for a DURS in time. Hopefully, our industry will 
have time to properly evaluate and comment on the plan. But for 
those policies to be effective they need to be clearly 
understood and presented not only by the day use 
reservationists as contracted for by National Park Service but 
also the National Park Service staff, those employed by the 
concessionaire, the hospitality industry of the gateway 
communities and those travel professionals, wholesale and 
retail throughout the state, the nation and the world. Given 
the time constraints that is unreasonable. The resulting 
confusion will be rising numbers of dissatisfied visitors, and 
a strong argument against a future DURS. There is simply not 
adequate time to prepare.
    Before any DURS can be effective we must first enhance the 
current shuttle system, both with an updated and expanded fleet 
and with longer hours of operation. In addition, we need a 
wider area of coverage, particularly during peak season. To 
maximize the benefits of this system will also require shuttle 
service from outlying communities and incentives to move into 
alternative transportation. These incentives need to include 
such things as oversize lockers and reasonable rest areas. The 
concept, ``Build it and they will come'' has value. If we 
create a user friendly transportation system, a DURS can be 
implemented to provide a positive guest experience and over a 
relatively short period of time we can guide people into a new 
way to see the Park. People will choose this alternative, not 
be forced to accept a lessor option as a last alternative.
    The perception exists on the part of many that private 
sector and the Park Service are miles apart on most issues. I 
strongly disagree. I know that B.J. and her staff place a high 
priority on a positive guest experience. Certainly we do. 
Preservation of the Park is a Park Service responsibility. For 
us it is an economic necessity. We too cherish the Park.
    The continuing challenge over my 20 years in El Portal has 
been to bring to the table those whose long term goals are for 
the most part in sympathy one to the other, and deal with the 
very real short term issues that can often polarize.
    More commonly, we seem to intuitively know the position, we 
assume antagonistic, of others and speak about each other, 
rather than to each other.
    This serves no one. The 1980 Management Plan clearly calls 
for the gateway areas to have a role in the future of Yosemite 
when it calls for encouragement of private enterprise outside 
the Park.
    This requires of the gateway communities a constant 
presence and concern. To often we only react to emergencies or 
park actions, rather than attempt to actively participate in 
the Parks on going planning process. This involvement must go 
beyond narrow self interest and extend to long term issues.
    The Park Service must also look to the gateway communities 
in a different light. We are by nature an independent lot, 
often outspoken, and seldom organized to full effectiveness. At 
the same time we can be instrumental in preparing guests to be 
sensitive Yosemite visitors. We can become an effective arm of 
the Yosemite interpretive services.
    The National Park Service should continue to work towards a 
more public review of proposed policies. It should more fully 
involve the gateway communities early on in those issues that 
will have significant impacts.
    The more public the process the more likely it is to be 
ultimately accepted. Superintendent Griffin has made tremendous 
strides in this direction. They must be continued and receive 
the full support of her staff in order to produce maximum 
benefit.

                                ------                                


 Testimony of Brian Huse, Pacific Region Director, National Parks and 
                        Conservation Association

    Introduction:

    My name is Brian Huse and I am the Pacific Region Director 
of the National Parks and Conservation Association. I am 
speaking today on behalf of the National Parks and Conservation 
Association (NPCA), America's only private non-profit citizens 
organization dedicated solely to protecting, preserving and 
enhancing the National Park System. I am also speaking on 
behalf of Yosemite Restoration Trust and The Wilderness 
Society. Together, our organizations have worked continuously 
to protect Yosemite National Park with the support and backing 
of over 810,000 members nationwide.
    We would first like to thank the subcommittee for holding 
this hearing today. This gathering represents the culmination 
of the first phase of Yosemite's recovery--the immediate 
stabilization of the Valley's infrastructure, assuring public 
safety, and reopening the park to visitors. We can now begin 
the next phase, which is planning for and implementing the 
restoration of the flood damaged areas.
    To be sure, the flood event took a significant toll on the 
developed areas in Yosemite Valley and seriously disrupted many 
people's lives. In addition, the resulting closure has impacted 
local economies, stressing many small businesses to the 
breaking point. The continued economic vitality of these 
gateway communities needs to be addressed as a part of this 
committee's review, and we stand with the subcommittee in our 
commitment to assist the communities in regaining their 
footing. But along with this upheaval, the New Year's flood has 
provided an unparalleled opportunity to address some long-
standing issues facing Yosemite in a way which will result in a 
healthier park and, thus, a higher quality park experience.
    I am pleased to offer testimony today detailing our 
perspective on how the Administration's supplemental funding 
request can be the catalyst for a visionary and comprehensive 
restoration program which not only corrects the damage from the 
flood event, but also helps achieve many of the goals long 
envisioned in the park's 1980 General Management Plan. Given 
appropriate goals and the latitude to involve the public in a 
comprehensive planning and environmental review process, the 
National Park Service will be able to apply this authorization 
in such a way as to resolve many of Yosemite's outstanding 
issues including: 1) transportation systems within the park, 2) 
the relocation of jobs and employee housing outside the park, 
and 3) the restoration of Yosemite Valley's natural processes. 
Moreover, we feel that these goals can be accomplished in a way 
which will bolster gateway communities' economies and 
strengthen these localities' partnerships with the park.
    In 1980 the public affirmed a new direction for Yosemite. 
Through the General Management Planning process, we committed 
to goals for a more natural national park experience. By 
decreasing the developed footprint, reducing the impact of the 
private automobile, and moving nonessential jobs and services 
outside the park boundary, the Park Service will enable the 
visitor to better appreciate the resources, both subtle and 
spectacular, for which this park is renowned. Though terribly 
destructive, this year's flood places many of these long-
standing goals on the table for consideration and 
implementation now. The subcommittee is to be commended for 
seizing this opportunity. In helping bring the necessary 
funding to achieve these goals, it has shown both vision for a 
better Yosemite and the understanding that this authorization, 
if well spent, is an investment in the future.

    Infrastructure and Development:

    The New Year's flood resulted in substantial damage to 
campgrounds, concessioner facilities, employee housing, and 
much of the Valley's infrastructure, demonstrating the risks of 
building facilities in the Merced River flood plain. From a 
functional perspective, redevelopment of facilities within the 
flood plain will result in future damage to park facilities and 
disruption of visitor services, requiring regular expenditures 
for rehabilitation and reconstruction of water damaged 
facilities.
    Drawing on guidance from the 1980 General Management Plan, 
the Park Service has been engaged in the development of a 
Valley Implementation Plan. Though the alternatives are still 
being finalized, each alternative recognizes the need to 
reconfigure development in the Valley by siting facilities in 
the safest, least environmentally sensitive areas. The original 
plan would take many years to implement. Now, using the recent 
demonstration of the extent of the flood plain as a guide, 
these funds will facilitate a more rapid and more 
environmentally sensible plan for implementation.
    We therefore urge the members of the committee to provide 
the flexibility necessary to complete the planning and public 
review process for the Valley Implementation Plan. Don't 
provide for specific earmarks for separate development 
projects. Direct the Park Service to pursue a planning process 
with time-lines and goals for each phase of planning, public 
review and implementation. We are concerned that any 
development projects authorized outside this Valley 
Implementation Plan process could impede this larger planning 
effort. Moreover, the construction of poorly planned projects 
will likely result in the need to redesign, reconfigure, or 
remove development at unnecessary additional cost.

    Transportation:

    Access and visitor circulation issues remain both a serious 
management problem and a flash-point for conflict between the 
park and the gateway communities. Although there is little 
disagreement over the need to reduce impacts on resources and 
the visitor experience that result from private automobile 
congestion, there are innumerable, firmly held opinions on how 
the park should address them. Years of study, however, have 
shown that Yosemite's transportation needs are inextricably 
linked to the surrounding counties. In 1994 the Congressionally 
mandated Alternative Modes Feasibility Study stated:
    ``The National Park Service recognizes the value of 
integrating the planning of transportation systems within the 
parks with the efforts of surrounding communities to address 
transportation issues.''
    Happily, approaching transportation from this perspective 
is already underway within the Yosemite Area Regional 
Transportation Strategy (YARTS). YARTS is a joint local, state 
and federal planning effort directed to find remedies for the 
region's complex transit needs. Recent advances within the 
YARTS should remind us that the potential exists to develop a 
true regional transit system designed with Yosemite day use 
visitation in mind. The study further states:
    ``Undoubtedly, many opportunities will be available to 
enhance the economic development potential of gateway 
communities and to reduce the impacts of transportation on park 
resources by providing innovative transportation systems based 
in gateway communities.''
    With the Administration's supplemental funding request, 
just such an opportunity exists. We urge you to make funds 
available to facilitate comprehensive regional transportation 
planning. This will fulfill two purposes. First, a regional 
transportation solution will eliminate the need to build 
unnecessary transportation-related facilities inside the park 
boundary. Properly implemented, a regional system can provide 
staging, visitor orientation, and mass transit into the park, 
while focusing facility development outside the park boundary. 
Second, by focusing development opportunities in the gateway 
communities, local economies will more directly realize the 
benefits of their location adjacent to the park boundary, 
concentrating tourism directly on those communities. This 
approach will provide a badly needed boost to the local 
economies after two consecutive years of park closures.
    In addition, this subcommittee should support the 
provisions of the Administration's legislation to reauthorize 
ISTEA, that would allow the Park Service to use its direct 
appropriations, as well as its Federal Lands Highway Program 
funds, to match state ISTEA allocations for non-park 
transportation projects that benefit the parks.

    Employee Housing:

    The concept of relocating nonessential jobs and housing was 
initially expressed in the Yosemite 1980 GMP and was developed 
in the 1992 Yosemite Valley Housing Plan. Currently a draft 
amendment to that plan has been circulated for public comment. 
As is the case with visitor facilities and infrastructure, the 
supplemental request has the potential to leverage this 
existing plan to relocate jobs, and the housing associated with 
them, outside the park. The relocation will reduce the 
developed area inside the Valley and allow for restoration of 
natural areas enhancing the resources of the park and improving 
the visitor experience.
    In addition, Section 814 of the Omnibus Parks and Public 
Land Management Act of 1996 has provided added incentive to 
accelerate the implementation of this important goal. Section 
814 grants new authority to the National Park Service for 
improving the quantity and quality of housing for field 
employees by:
    <bullet>expanding alternatives available for construction 
and repair of essential government housing;
    <bullet>allowing the private sector to finance or supply 
housing to maximum extent possible, in order to reduce the need 
for Federal appropriations;
    <bullet>ensuring that adequate funds are available for 
long-term maintenance needs of field employee housing; and
    <bullet>eliminating unnecessary government housing and 
locating such housing as is required in areas which minimize 
impairment of park resources.
    By taking advantage of this new authority, the Park Service 
will be able to develop resourceful partnerships with the 
private sector, reducing or eliminating the need to construct 
and maintain new employee housing at significantly greater 
expense. The savings should be directed toward more projects or 
activities which benefit the public and improve the visitor 
experience. We recommend that members of the committee direct 
the Park Service to work cooperatively with local governments 
to research the relevant issues and develop a plan to house as 
many NPS and concession employees as feasible in gateway 
communities.

    Protection of Park Resources:

    In providing funding for Yosemite's Restoration, however, 
this committee, the Appropriations Committee and the National 
Park Service itself must all be vigilant in observing the 
Organic Act to preserve park resources unimpaired. A 
fundamental precept of the 1980 General Management Plan was to 
reduce the amount of development inside the park and restore 
natural habitat. This precept is incorporated into the 
recommendations we offer today. The relocation of facilities 
outside the Valley or in more appropriate places within the 
park will allow for the rehabilitation of the Merced River's 
riparian habitat. Establishing a regional transit system will 
eliminate crowding and congestion of private automobiles and 
therefore require fewer roads in Yosemite Valley. As 
development is reduced and natural processes are allowed to 
return, the public will benefit by a higher quality park 
experience.

    Conclusion:

    As disastrous as the New Year's flood itself was for 
Yosemite National Park and for the surrounding communities, it 
has left in its wake opportunities for restoration of the park 
and revitalization of the communities unparalleled in the 
park's 133 year history. The redevelopment which should proceed 
under the guidance of the 1980 GMP and this supplemental 
funding can and should be a model for future park planning in 
which the needs of the park, the needs of the visitor and the 
needs of the surrounding communities are simultaneously 
addressed in a manner which leverages none of these against the 
interest of another.
    In closing, however, we should all recognize that these 
plans for proactive redevelopment have not appeared overnight. 
The General Management Plan which forms the basis for 
implementation was written 17 years ago by park professionals, 
and carefully considered through a public review process. It 
carries a vision for the park which many of us are only now 
beginning to appreciate. Similarly, the Valley Implementation 
Plan had been developed over years, prior to the flood. What 
the flood provides is opportunity. If we have even a glimmer of 
the vision of the original planners in 1980, we will seize this 
opportunity and make the New Year's flood of 1997 remembered 
not as a disaster for the park and the surrounding communities 
but as the beginning of a new paradigm of economic success, 
resource protection and skilled park management.

                                ------                                


    Statement of Garrett De Bell, Executive Director, The Yosemite 
             Guardian--A Project of Earth Island Institute

    Thank you for the opportunity to participate in this 
oversight hearing on the very important topic of the 
restoration of Yosemite.
    My name is Garrett De Bell and I am Executive Director of 
the Yosemite Guardian, a project of Earth Island Institute.

    Introduction:

    Yosemite Guardian works to protect Yosemite and to achieve 
fair and considerate treatment for visitors and area residents. 
We work to ensure the continued existence of Yosemite's 
magnificent forests and meadows with their biodiversity intact. 
The environmental issues that concern us most include the need 
for an adequate control burn program to protect and restore the 
mid-elevation forests and the need for a research and 
restoration effort sufficient to understand and reverse the 
alarming disappearance of frogs from the wilderness of 
Yosemite. We bring up these issues today in the context that 
these important needs continue to be ignored while issues in 
the developed area of Yosemite Valley and its fabled, but 
exaggerated, gridlock receive the lion's share of attention and 
money when simpler measures could manage the problem.
    We vigorously support the right of access to the Park by 
visitors without unnecessary restrictions.
    We advocate a completely open decision making process which 
allows the people a voice in the decisions that effect them.
    We are heartened by this hearing today, as we recognize a 
need to increase Congressional oversight of NPS plans and 
actions as well as to increase the level of informed public 
involvement. We are working to ensure that both these avenues 
of ``quality control'' stay open.
    Our views, information resources, and new programs to help 
citizens become better informed and more powerful supporters of 
Yosemite can be found on our web site at http://
members.aol.com/YosemiteOL/
    The fresh attention to Yosemite and possibility of more 
money, following on the tail of the new infusion of money from 
increased entrance fees, the new concession contract, and the 
continued success of Yosemite Fund efforts, makes it very 
important that we see the money is spent in ways that best 
achieve the NPS mandate of preserving Yosemite for all time 
while providing for its use and enjoyment by present and future 
generations.
    $178 or $200 million is a lot of money--even more could and 
should be spent to bring Yosemite up to the excellence it 
should have, in infrastructure, facilities, guest services, and 
most important environmental protection. But it is important 
that it be spent wisely. It is also important that restrictive 
measures that unnecessarily restrict visitation and harm the 
surrounding communities are not implemented casually. The 
details of the NPS's request have not been made public, so we 
cannot comment on the details--and this is an issue.
    Without access to reliable and official NPS cost estimates, 
I will concentrate on a few of the major items that seem to be 
``on the table'' currently, but first I will briefly summarize 
my background and set forth some overall concerns.

    Background:

    I am a biologist with primary interests and concerns in the 
ecology of plant and animal communities. My training was at 
Stanford and U.C., Berkeley. I have been privileged to work 
with some of the great ecologists including Starker Leopold 
whose work still is the foundation of much NPS wildlife and 
wildland policy. I have a home near Yosemite part of which is 
rented on a nightly basis to Yosemite visitors--perhaps the 
smallest rental unit in the area.
    I have been in love with Yosemite from childhood. I hiked 
the High Sierra Loop many times in my early teens and hiked 
from Mt. Whitney to Yosemite Valley on the John Muir Trail by 
myself when I was sixteen. I have climbed many of the walls and 
peaks of Yosemite, skied the trails, and kayaked the rivers. My 
wife and I were married in a snowstorm on Henness Ridge 
overlooking the Merced River and its South Fork.
    After finishing graduate school at U.C. Berkeley, my first 
major work was with David grower, who asked me to put together 
The Environmental Handbook, which was the unofficial handbook 
for the first Earth Day. The NPS bought many copies to help 
their managers to better understand increasingly complex 
environmental issues--and they have grown much more complex 
since then.
    As an environmental consultant for the Curry Company, I was 
privileged to be able to play a key role in many lasting 
environmental projects in Yosemite. Some of these were the 
establishment of a comprehensive recycling and beverage 
container deposit program, elimination of CFC containing 
products from the Park, ensuring protection for the Merced 
River in the Wild and Scenic River System, removing many 
obsolete structures, and writing the environmental assessments 
for major projects including the removal of the sewer plant 
from the west end of Yosemite Valley.

    Concern with the rush to implement Reservations and other 
restrictions on use:

    We are alarmed at the rapid push by the NPS to implement a 
Day Use Reservations System without public hearings or input as 
well as the rush to go forward with other newly proposed major 
changes in Yosemite Valley. While the GMP authorizes many of 
the actions, many others are treading new ground and require 
public review and NEPA compliance. We are including here the 
closing of the Rivers Campground which is not called for in the 
1980 GMP, and the proposed Taft Toe parking area and the 
related elimination of the excellent one way loop road that was 
one of the major accomplishments of the recent past. But the 
rush for reservations seems particularly misplaced. We realize 
these projects are intended to help reduce Yosemite's 
automobile congestion. We know they are well-intentioned, but 
nevertheless we feel they will be counterproductive.
    What is the need for a day use reservations system, in 
normal times or in this year of ``highwater''? In spite of the 
rhetoric about Yosemite ``having reached its saturation point'' 
etc., the fact is that even Yosemite Valley is rarely ``full'' 
as defined by the NPS car counts and the capacities set by the 
NPS after a comprehensive planning process. In fact the Valley 
should never be full unless the NPS goofs, because the Day Use 
Traffic Management Plan cuts off access in the rare event that 
the Valley capacity is approached--only a few days at most a 
year.
    Perhaps there is a temporary need for reservations this 
year, due to the flood, but this is not obvious. One would 
assume that visitation will be down due to the publicity and 
the closure of some campgrounds and many overnight units--
eliminating all those cars from the roads, trail heads, and 
parking lots.
    The ability to accommodate these day users wouldn't seem to 
be a problem. The problem with the broken sewer has been fixed, 
the wells work--at least on manual control. There should be 
plenty of parking for the reduced number of visitors.
    What is the problem that requires the reservations system? 
The justification from the Park has been very sketchy and it 
sounds like another ``closure for the convenience of the 
government'', a trend that has been growing over the past 
decade which has seen many closures, such as when the 
government shut down. But there is a rash of less extensive 
closures: closing the Glacier Point road to Badger pass until 
the ski area is declared open; denying people the right to hike 
or ski on the trails in early and late season, and the closure 
of the river to kayakers below El Cap Bridge for no apparent 
reason, and the closure of campgrounds along the Merced River.
    But if there are reasons the NPS should tell people what 
they are and formulate their policy publicly and work with the 
stakeholders, with all concerned constituencies, to minimize 
the unintentional harm done by a poorly conceived system. The 
goal and result of public involvement is better policy. Yes it 
takes time, but it is fundamental to a free society.
    The hasty imposition of a reservation system is certain to 
harm the surrounding communities which provide accommodations 
and other services outside the boundaries as called for by the 
NPS and its visionary GMP. These communities should be viewed 
as partners by the Park and included in the planning. It is 
necessary to remind the Park of its own GMP which states on p. 
10 the goal of ``encouragement of private enterprise outside 
the Park'' as a key element in providing accommodations 
outside, rather than inside, Yosemite's boundaries.
    Any reservation system should be imposed only if there 
truly is a need and the system should be designed to be 
minimally harmful to visitors and the region. There are options 
that could make the system less burdensome on visitors and the 
community--we shouldn't make visitors regiment their Yosemite 
experience unless it is really necessary and simpler and less 
restrictive measures have been tried and failed.
    Is the system mandatory or voluntary? A voluntary system--
to assure a visitor of entrance even if capacity is reached--
might be no big problem. But if a reservation is required in 
order to enter the Park, whether it is full or not, then the 
system will be very harmful, and unnecessarily so, to visitors 
and the community. Popular restaurants admit guests without 
reservations whenever they are not ``full''. You are never 
``required'' to have a reservation.
    What is the number of Cars and busses allowed? A 
reservations system should not be used to arbitrarily lower the 
number of vehicles allowed without a public process.
    What will the fee be? Will it be in addition to the 
entrance fee, which has just been quadrupled, or part of it? 
Will the fee be charged to all, or just those who want 
guaranteed admittance. Will a visitor staying in the nearby 
communities need a day use permit for each day, or one for the 
entire visit? Will the hotels in the gateway communities be 
able to issue reservations--acting as agents for the 
reservations system?
    What provisions will be made for those who do not have 
credit cards to purchase a reservation by phone, or who don't 
speak English? Will there be options such as pay at the 
entrance if reservations are available? If not why not?

    Alternatives:

    There are alternative ways to reduce crowding and 
automobile use without the high cost and regimentation of the 
proposed reservation system and proposed changes in the Valley. 
A real and important long term need is to reduce the number of 
cars driving to Yosemite, but we think this should be done by 
providing quality and voluntary alternatives that people will 
use. The free or low fare shuttle proposed by local businesses, 
on a funding model similar to the successful Valley Shuttles 
and Badger Shuttle (which are funded by add-one to various fees 
such as lift tickets) could let many visitors leave their cars 
in Mariposa, Fish Camp, Buck Meadows or other logical points on 
the 3 highways. By taking the shuttle instead of cars everyone 
wins.
    Reducing or eliminating completely the counterproductive 
$10/passenger entrance fee for bus passengers seems essential 
to the goal of encouraging use of public transit.
    Incentives and disincentives used elsewhere to smooth peaks 
in use should be tried--develop a tiered fee structure with 
higher peak day fees and lower off-peak along with a carpool 
incentive to waive the fee for carpools of 4 or more occupants. 
This will create a powerful, but voluntary, incentive for 
people to carpool for day trips--particularly on peak days.
    Provide a free shuttle or free passage on regional transit 
for commuting employees, saving them money while getting their 
cars off the road.
    Improve the existing information system to provide 
consistently accurate information on park access regarding 
capacity, closures, etc. so people can plan their visits 
knowing if the Park is ``full'' or not. It usually is not.
    And implement common sense measures to eliminate the 7 or 
so bottlenecks where most of the ``gridlock'' occurs--the 3 
western entrances and 4 key intersections in the Valley. 
Adequate staffing of entrance stations and someone directing 
traffic would do a world of good. The media frequently prints 
the sensational photographs of the long lines at the entrance 
station on holidays like Memorial Day--not telling the whole 
story that it is just a bottleneck that could be easily opened.

    Valley transpiration issues:

    We believe that the major transportation need in Yosemite 
is to encourage more people to voluntarily leave their car and 
take busses or shuttles--and Yosemite benefits most from the 
visitor who takes public transportation all the way to Yosemite 
from home--Amtrak to Merced and then the bus to Yosemite. 
Leaving a car in the Gateway communities to take a shuttle is 
highly advantageous as well--in terms of air pollution and 
energy use as well as the congestion, parking, and ``gridlock'' 
issues.
    We understand that the concept of a parking area at Taft 
Toe at the west end of Yosemite Valley is about to surface 
again as the restoration effort and the interrelated Valley 
Implementation plan goes forward. Compared to the benefits of 
the shuttles from the gateways and beyond, we see no benefit to 
this proposal which would have people drive all the way to the 
West End of Yosemite Valley only to be forced to transfer to a 
shuttle for the last three miles of their trip. The costs and 
inconvenience will be huge, the environmental impact large, and 
the benefits small and largely symbolic.

    Ecological issues:

    We concentrate so much on the transportation issues in part 
because they divert attention from the ecological threats which 
we think need more attention if Yosemite is ever to be truly 
protected. If the transportation issues could be dealt with in 
the most common sense and cost effective manner then there 
would be money left over to restore Yosemite's forests.
    We have an ongoing concern that the major ecological 
threats to Yosemite's forests, meadows, and wildlife get short 
shrift as attention always focuses on the real but very 
infrequent ``gridlock in Yosemite Valley''. As the flood 
recovery goes forward we are seeing clear indications that the 
NPS wants to implement actions that will make it more difficult 
or expensive to visit Yosemite--with no clear reason.
    We hope the Congress and the Park will look at the big 
picture of the need to protect and restore Yosemite, all of it, 
not just the developed areas. And the costs for some of the 
major programs needed to protect and restore the wilderness are 
minor compared to many of the items on the table because of the 
flood, or soon to be on the table as the VIP or Valley 
Implementation plan finally goes public.
    Let me take one very important specific. The mid-elevation 
forests of Yosemite have been put at risk by well-intentioned, 
but misguided management actions, just as the floodplains 
should not have had employee tent housing, the forests should 
not have been protected from fire for 50 years. The tragic 
result of this overprotection has set the stage for ecological 
and human disaster.
    In 1990 Yosemite saw the disastrous Steamboat and Arch Rock 
Fires which burned from highway 140 to Badger Pass on the South 
and almost to Crane Flat, consuming most of Foresta on the way 
on the North side. The stage is set and gets worse each year in 
the remaining forests mid-elevation forests. The NPS 
understands these issues very well, and is very competent at 
conducting the controlled burns to restore the forests, but the 
money or the will isn't there to treat the acres that need it.
    While the focus today is on spending money to do the right 
thing in the flood plain and damaged infrastructure, and we 
support that, we also believe this is the time to widen the 
focus to correct the dangerous and environmentally harmful 
impacts in the forests. Either more money should be 
appropriated or at least an oversight process set that ensures 
that any funds left over after the flood damage and restoration 
is complete goes to the highest priority items.
    The need is to burn a total of about 140,000 acres on a ten 
year rotating cycle or 14,000 acres per year. At a cost of 
about $100/acre to prepare and management the burn--costs which 
decline as the forest is restored and becomes less of a ``dog 
hair thicket'' ready to explode--we are looking at $1,400,000 
per year, maybe more, maybe less--but the number is probably as 
good as many in the damage assessments.
    Compare this to the costs in the NPS housing plan to move 
each employee from the Valley where they work now to El Portal 
of over $300,000 per employee including moving offices and 
duplicating infrastructure. As we implement money to restore 
Yosemite we need to ask questions about how best to spend the 
money. If a tent village such as the Terrace or Boystown were 
improved and retained, the savings over building upscale dorms, 
whether in the valley or El Portal, would be enough to fund 
unmet environmental needs.

    Summary and concern with oversight:

    In summary we hope these hearings will lead to increased 
ongoing oversight by the committee, as was common years ago 
when staffers Dale Crane and Clay Peters made frequent visits 
and kept in touch by phone in between. It is only through 
democratic give and take and oversight by Congress and citizens 
that government can do its best. Yosemite needs vigorous and 
well informed discussion to ensure that the best and fairest 
decisions are made with full public involvement.
    Thank you for this opportunity to comment. For more 
information contact: Garrett De Bell Executive Director The 
Yosemite Guardian, a project of Earth Island Institute 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eab385998f87839e8fa5a6aa8b8586c4898587">[email&#160;protected]</a> http://members.aol.com/YosemiteOL/ 415 991-
0102

                                ------                                


 Statement of Linda Wallace, Chair, Yosemite Committee, for the Sierra 
                                  Club

    A Window of Opportunity

    The flood along the Merced River in January of 1997 served 
as a wake-up call for all those who care about Yosemite 
National Park. Since the Park's visionary General Management 
Plan (GMP) was adopted in 1980, we have let 17 years slip by, 
doing very little to solve the problems of overdevelopment and 
traffic congestion it addresses.
    Yosemite is now at a crossroads. Because of the river's 
decisive action, Congress, the Administration and the National 
Park Service can now act to turn this disaster into an 
opportunity. We can make the visitor's experience of Yosemite a 
better one than what we've experienced during this decade.
    After natural disasters there is often a window of 
opportunity for change--for example, the removal of the 
Embarcadero double deck freeway along San Francisco's 
waterfront after the Loma Prieta earthquake, which had been 
previously discussed by the public, has now opened up views of 
the Bay from the City without major traffic impacts. Because of 
this and other experiences, we believe that the public is now 
open to seeing us change the way things work in Yosemite.
    The legislation proposed by Congressmen Radanovich and 
Doolittle, Senator Boxer and the Administration's request for 
supplemental funding demonstrate that there is bi-partisan 
support for putting things right in Yosemite. This funding was 
originally called for when the GMP was adopted back in 1980 and 
that didn't occur. The flood has now provided us with a 
physical opportunity; the legislation provides the political 
opportunity to make now the right time to implement the GMP.
    It will not be enough--and not fair to the American public 
and our international visitors--if we simply repair and replace 
the development that was in the floodplain. This would be a 
poor use of our tax dollars. We need to invest for the long-
term with the appropriation that comes to Yosemite. This must 
be about protecting the natural resource and providing a better 
experience of this natural setting for the American public to 
whom this Park belongs.

    Flexibility and Collaborative Planning

    Because it is important to open all of the Park to the 
public as soon as possible, the needs assessment and cost 
estimates are being developed very rapidly. While we 
enthusiastically support the proposed funding measures, we also 
believe it is necessary to give the Park Service flexibility to 
spend the funds where they are really needed when the flood-
related damage is better known. We recommend that the 
legislation not mandate or prohibit any specific details about 
Yosemite restoration; rather, the details of implementation be 
developed through a collaborative planning process involving 
public input.
    It is very important for the Park Service to be open to 
public input about the planning and implementation of changes. 
At the same time, let us not become mired in arguments about 
specific details of the restoration and lose this long overdue 
opportunity. Let us keep our eyes on the objective of 
protecting and enhancing this national resource. At the same 
time, we think that the economies of the gateway communities 
will also benefit and thrive by providing more visitor services 
than they currently do.

    Funding for Resource Management and Interpretation

    As a component of the legislation Sierra Club urges 
Congress to include funding for resource management and 
interpretation.
    Resource management will allow the Park to return to a more 
natural state while promoting an improved visitor experience. 
Specifically, we want to see funds for habitat restoration, 
scientific study, and ecological research. These are the types 
of activities that we believe are highly important to 
protection of the resource but which have not been adequately 
funded.
    Interpretation is an essential component to the quality of 
the visitors' experience.

    Managing Vehicles in the Park

    It has become increasingly obvious in the 90's that the 
answers to managing the crowding and congestion in the Park 
revolve around how we manage private vehicles. Sierra Club 
advocates a regional transit system which includes a shuttle 
bus system from gateway communities and a day use reservation 
system for vehicles as options to solve the congestion problem.
    Congestion has grown steadily in Yosemite each year since 
the GMP was adopted in 1980. In 1996, in spite of the Park 
closure during the government shutdown, overall visitation was 
still up from 1995. Every indication is that the numbers will 
climb as America's national parks continue to be a prime 
destination of people from around the world.
    Private vehicles actually compete with people for space in 
the Valley. If people use mass transit instead of private 
vehicles to enter the Valley, then they can enjoy Yosemite 
without congesting it.
    The Yosemite Area Regional Transportation Strategy (YARTS), 
a collaborative effort of local governments, is already in 
place to administer a regional transit system. But they will 
have to move quickly and decisively now to capitalize on the 
opportunity afforded them in the wake of the flood.
    Although some suggest that a day-use reservation system for 
vehicles will scare people away, Sierra Club believes such a 
system would provide insurance that visitors will not be turned 
away at the gate, or have to sit for hours waiting in line for 
parking spaces to be freed up, losing hours they could have 
spent enjoying the Park.
    If we provide a number of options for how to enter the 
Park, people will choose the one that works best for them. If 
it is to drive our own vehicle, we'll need to make a 
reservation. We already make reservations for lodging in the 
Park, the gateway communities, for campgrounds and for 
restaurants. A reservation option eliminates the risk that 
we'll get to Yosemite and be turned away. There are ways to 
design a reservation system so that those who are staying in 
gateway community lodging, park lodging, or using buses are 
guaranteed entry.
    In the long term, a day-use reservation system has the 
potential to be better for visitors and to provide for a more 
stable economy in the neighboring communities. People and their 
dollars will be brought to the gateway communities. A day use 
reservation system for private vehicles can also help pave the 
way for a comprehensive mass transit and shuttle system between 
Merced, Fresno, the gateway communities, and Yosemite.
    Let's keep in mind also that there is the possibility in 
the next decade that California will begin building a high 
speed rail system serving the Highway 99 Corridor between the 
San Francisco Bay Area and San Diego, including a stop in 
Merced. This rail system has the potential to deliver an 
enormous number of visitors without vehicles to Yosemite. This 
argues for planning now to bring a comprehensive shuttle bus 
system to the Park and for having it up and running before high 
speed rail is in place.

    Conclusion

    In conclusion, Sierra Club trusts that the 105th congress 
will heed the warning sounded by the flood, and provide the 
full appropriation for the crown jewel of the National Park 
System. We urge flexibility in the use of these funds, an open 
public planning process, funds for resource management and 
interpretation, a day-use vehicle reservation system, and the 
planning and implementation of a regional transit system.
    Overdevelopment in Yosemite, increasing congestion and 
crowding need to be addressed now. We must take advantage of 
this window of opportunity afforded by the flood.

[GRAPHIC] [TIFF OMITTED] T0739.001

[GRAPHIC] [TIFF OMITTED] T0739.002

[GRAPHIC] [TIFF OMITTED] T0739.003

[GRAPHIC] [TIFF OMITTED] T0739.004

[GRAPHIC] [TIFF OMITTED] T0739.005

[GRAPHIC] [TIFF OMITTED] T0739.006

[GRAPHIC] [TIFF OMITTED] T0739.007

[GRAPHIC] [TIFF OMITTED] T0739.008

[GRAPHIC] [TIFF OMITTED] T0739.009

[GRAPHIC] [TIFF OMITTED] T0739.010

[GRAPHIC] [TIFF OMITTED] T0739.011

[GRAPHIC] [TIFF OMITTED] T0739.012

[GRAPHIC] [TIFF OMITTED] T0739.013

[GRAPHIC] [TIFF OMITTED] T0739.014

[GRAPHIC] [TIFF OMITTED] T0739.015

[GRAPHIC] [TIFF OMITTED] T0739.016

[GRAPHIC] [TIFF OMITTED] T0739.017

[GRAPHIC] [TIFF OMITTED] T0739.018

[GRAPHIC] [TIFF OMITTED] T0739.019

[GRAPHIC] [TIFF OMITTED] T0739.020

[GRAPHIC] [TIFF OMITTED] T0739.021

[GRAPHIC] [TIFF OMITTED] T0739.022

[GRAPHIC] [TIFF OMITTED] T0739.023

[GRAPHIC] [TIFF OMITTED] T0739.024

[GRAPHIC] [TIFF OMITTED] T0739.025

[GRAPHIC] [TIFF OMITTED] T0739.026

[GRAPHIC] [TIFF OMITTED] T0739.027

[GRAPHIC] [TIFF OMITTED] T0739.028

[GRAPHIC] [TIFF OMITTED] T0739.029

[GRAPHIC] [TIFF OMITTED] T0739.030

[GRAPHIC] [TIFF OMITTED] T0739.031

[GRAPHIC] [TIFF OMITTED] T0739.032

[GRAPHIC] [TIFF OMITTED] T0739.033

[GRAPHIC] [TIFF OMITTED] T0739.034

[GRAPHIC] [TIFF OMITTED] T0739.035


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
